<html>
<title> - THE PRESIDENT'S NEW VISION OF SPACE</title>
<body><pre>[Senate Hearing 108-1025]
[From the U.S. Government Publishing Office]


                                                       S. Hrg. 108-1025

                  THE PRESIDENT'S NEW VISION OF SPACE

=======================================================================

                             FIELD HEARING

                               BEFORE THE

                  SUBCOMMITTEE ON SCIENCE, TECHNOLOGY,
                               AND SPACE

                                 OF THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 18, 2004

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation

       
 [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
 
 
                         U.S. GOVERNMENT PUBLISHING OFFICE
22-360 PDF                      WASHINGTON : 2016                         
       
__________________________________________________________________________________________  
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="91f6e1fed1f2e4e2e5f9f4fde1bff2fefcbf">[email&#160;protected]</a>  
     
       
       
       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                     JOHN McCAIN, Arizona, Chairman
TED STEVENS, Alaska                  ERNEST F. HOLLINGS, South 
CONRAD BURNS, Montana                    Carolina, Ranking
TRENT LOTT, Mississippi              DANIEL K. INOUYE, Hawaii
KAY BAILEY HUTCHISON, Texas          JOHN D. ROCKEFELLER IV, West 
OLYMPIA J. SNOWE, Maine                  Virginia
SAM BROWNBACK, Kansas                JOHN F. KERRY, Massachusetts
GORDON H. SMITH, Oregon              JOHN B. BREAUX, Louisiana
PETER G. FITZGERALD, Illinois        BYRON L. DORGAN, North Dakota
JOHN ENSIGN, Nevada                  RON WYDEN, Oregon
GEORGE ALLEN, Virginia               BARBARA BOXER, California
JOHN E. SUNUNU, New Hampshire        BILL NELSON, Florida
                                     MARIA CANTWELL, Washington
                                     FRANK R. LAUTENBERG, New Jersey
      Jeanne Bumpus, Republican Staff Director and General Counsel
             Robert W. Chamberlin, Republican Chief Counsel
      Kevin D. Kayes, Democratic Staff Director and Chief Counsel
                Gregg Elias, Democratic General Counsel
                                 
                                 ------                                

             SUBCOMMITTEE ON SCIENCE, TECHNOLOGY, AND SPACE

                    SAM BROWNBACK, Kansas, Chairman
TED STEVENS, Alaska                  JOHN B. BREAUX, Louisiana, Ranking
CONRAD BURNS, Montana                JOHN D. ROCKEFELLER IV, West 
TRENT LOTT, Mississippi                  Virginia
KAY BAILEY HUTCHISON, Texas          JOHN F. KERRY, Massachusetts
JOHN ENSIGN, Nevada                  BYRON L. DORGAN, North Dakota
GEORGE ALLEN, Virginia               RON WYDEN, Oregon
JOHN E. SUNUNU, New Hampshire        BILL NELSON, Florida
                                     FRANK R. LAUTENBERG, New Jersey
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on February 18, 2004................................     1
Statement of Senator Brownback...................................     1
    Prepared statement...........................................     2

                               Witnesses

Chafer, Charles M., President, Team Encounter, LLC...............    34
    Prepared statement...........................................    37
Cornyn, Hon. John, U.S. Senator from Texas.......................     3
DeLay, Hon. Tom, Congressman from Texas..........................     4
Lorsch, Robert H., President, The RHL Group, Inc.................    39
    Prepared statement...........................................    42
Mitchell, William F., President, Altair Development Corporation 
  and Chief Executive Officer, NEO Safety International..........    79
    Prepared statement...........................................    81
Readdy, William, Associate Administrator for Space Flight, 
  National Aeronautics and Space Administration; accompanied by 
  Dr. Mary Kicza, Associate Administrator for Biological and 
  Physical Research; Retired U.S. Navy Rear Admiral Craig 
  Steidle, Associate Administrator for Exploration Systems; and 
  General Jeff Howell, Administrator of the Johnson Space Flight 
  Center.........................................................     8
    Prepared statement...........................................    10
Stadd, Courtney A., President, Capitol Solutions.................    86
    Prepared statement...........................................    89

 
                  THE PRESIDENT'S NEW VISION OF SPACE

                              ----------                              


                      WEDNESDAY, FEBRUARY 18, 2004

                               U.S. Senate,
    Subcommittee on Science, Technology, and Space,
        Committee on Commerce, Science, and Transportation,
                                                    Nassau Bay, TX.
    The Committee met, pursuant to notice, at 9:30 a.m. in 
Council Chambers, Nassau Bay City Hall, Hon. Sam Brownback, 
Chairman of the Committee, presiding.

           OPENING STATEMENT OF HON. SAM BROWNBACK, 
                   U.S. SENATOR FROM KANSAS:

    Senator Brownback. I call the hearing to order; I thank you 
all for being out this morning. My name is Sam Brownback and I 
chair the Senate Subcommittee for Science, Space, and 
Technology. This is a field hearing of the U.S. Senate and the 
Subcommittee regarding space exploration and going to the Moon 
and beyond. I particularly wanted to have this hearing in 
Houston, given its connection, its guidance and the work that's 
going to be involved to get this exciting mission going.
    I'm delighted to be joined by two Texans, both of whom will 
be giving an opening statement, who are enormously supportive 
of the space program and guiding it. Their vision has helped to 
get us to this point and is going to carry it on forward. We'll 
be having witnesses, and I understand both of them have further 
schedules as well. So, they may have to depart sometime before 
the full hearing is over.
    On January 14, President Bush gave one of the most 
important speeches a president can give. He set our Nation once 
again on a course to the future. This future will see American 
men and women return to the Moon for extended periods of time 
and journey to the planet of Mars. This initiative is 
definitely a big boost to NASA, and its dedicated men and 
women, but it's much more than that. It is for the next 
generation of Americans. President Bush wants a new generation 
of Americans to have an unlimited future, a future in which 
space exploration will play a key role.
    My generation was inspired by Americans walking on the Moon 
and flying in space. We were inspired to study science and 
engineering and we put those talents to great use in building 
America's economy to the envy of the world. The new generation 
of young Americans watches countless movies and television 
shows featuring humans working and living on other worlds, 
President Bush has challenged them to make these visions real, 
and they will.
    President Bush's space initiative will involve new NASA 
programs that will be much more than just government work. It 
will unite our vast private sector's talents and resources to 
lead the way to space, generating great new wealth and 
capability. In the next few months, the private sector will be 
flying ordinary Americans to space for the first time.
    In a few months, completely privately-financed rockets will 
blast new, low-cost satellites into orbit. These satellites 
will contribute a new dimension to our pressing national 
security problems and we'll hear some of their ideas today. 
America is not alone in understanding the promise of space 
exploration; the first in a series of European missions to the 
Moon is currently underway (more will soon follow from India, 
Japan and China). These nations have all announced their intent 
to place humans on other worlds, beginning with the Moon. Some 
of these nations are allies but they are all our economic 
competitors. They know that their space exploration will 
stimulate their new generations to develop both technical and 
ultimately economically powerful new capacities.
    It has been almost 30 years since Americans last walked on 
another world, 30 years. Much has changed; new technologies and 
ideas have emerged. Some have criticized the exploration effort 
as unaffordable and extravagant, but this is manifestly untrue. 
Most of the Government resources needed for human exploration 
of the Moon and Mars will come from reorienting our priorities 
within NASA. More significantly, though, other resources will 
come from American entrepreneurs who will reap the rewards of 
their space investments.
    I'm proud to chair the Senate Subcommittee on Science, 
Technology, and Space and I'm proud to be here in Houston today 
where America's past journeys to other worlds were led and 
where our future journeys will be led as well.
    Your work will continue to inspire new generations. It's 
America's destiny to lead the world in science, technology, 
space, and economic development, as well as to lead humanity to 
other worlds. It's an exciting and bold mission.
    I'm delighted to be joined by my colleague in the Senate, 
John Cornyn and I have to say, ``Thank you, Texas,'' for 
sending us such a great Senator. I have already gotten to know 
him well in the period of time he's been in the Senate and 
although he's new, he is not operating as somebody new. He is 
doing a fabulous job. You should be very pleased with your new 
Senator.
    [The prepared statement of Senator Brownback follows:]

   Prepared Statement of Hon. Sam Brownback, U.S. Senator from Kansas
    On January 14, President Bush gave one of the most important 
speeches a President can give. He set our Nation once again on a course 
to the future. This future will see American men and women return to 
the moon for extended periods and journey to the planet Mars.
    This initiative is a big boost to NASA and its dedicated men and 
women to be sure. But it is much more than that. It is for our next 
generation of Americans. President Bush wants a new generation of 
Americans to have an unlimited future--a future in which space 
exploration will play a key role. My engineering. And we put those 
talents to great use in building America's economy to the envy of the 
world. Our new generation of young Americans watches countless movies 
and television shows featuring humans working and living on other 
worlds. Now President Bush has challenged them to make these visions 
real. And they will!
    President Bush's space initiative will involve new NASA programs. 
But it will be much more than just Government work. It will ignite our 
vast private sector's talent and resources to lead the way in space--
generating great new wealth and capability. In a few months this 
private sector will fly ordinary Americans in space for the first time. 
In a few months wholly privately-financed rockets will blast new low 
cost satellites into orbit. These satellites will contribute a new 
dimension to our pressing national security problems. We will hear some 
of these ideas today.
    America is not alone in understanding the promise of space 
exploration. Even now the first in a series of European missions to the 
moon is underway. More will soon follow from India, Japan and China. 
These nations have all announced their intent to place humans on other 
worlds beginning with the moon. Some of these nations are allies. But 
they are all our economic competitors. They know that their space 
exploration will stimulate their new generations to develop technical 
and ultimately economically powerful new capabilities.
    It has been almost 30 years since Americans last walked on another 
world. Much has changed. New technologies abound. New ideas have 
emerged. Some have criticized the exploration effort as unaffordable 
and extravagant. This is manifestly untrue. Most of the Government 
resources needed for human exploration of the Moon and Mars will come 
from re-orienting our priorities within NASA. More significantly 
though, other resources will come from the American entrepreneurs who 
will reap the rewards of their space investments.
    I am proud to chair the Senate Subcommittee on Science, Technology, 
and Space. I'm proud to be here today in Houston--where America's past 
journeys to other worlds were led and where our future journeys will 
begin. Your work will continue to inspire our new generations. It is 
America's destiny to lead--to lead the world in science, technology and 
space, to lead in economic development and to lead humanity to other 
worlds.

    Senator Brownback. John, thank you for joining me this 
morning.

                STATEMENT OF HON. JOHN CORNYN, 
                    U.S. SENATOR FROM TEXAS

    Senator Cornyn. Good, I'm glad to have you here.
    And Senator Brownback, I'd like to welcome you and NASA 
Associate Administrator Readdy, on behalf of myself and Senator 
Kay Bailey Hutchison, who I know regrets she's not able to be 
here today, and I thank you for the opportunity to say a few 
words this morning.
    Of course, it's always an honor to be with my friend and 
the Johnson Space Center's best friend in the House of 
Representatives, the Majority Leader of the House of 
Representatives Tom DeLay. Tom, always good to be with you.
    As a Senator representing Texas, I'm immensely proud of the 
dedicated men and women working at the Johnson Space Center, 
which has been the home of America's manned space flight for 
more than 40 years. In Houston working at NASA is more than a 
job, it's a way of life dedicated to expanding our body of 
knowledge and the way of life through human space exploration.
    On January 14, as Senator Brownback has already noted, the 
President unveiled a vision for our space program that is 
worthy of our great Nation, daring, innovative and 
revolutionary. The United States was settled by pioneers who 
were determined and undaunted by any obstacle--NASA and the 
private companies supporting our space program are the modern 
manifestation of this pioneering spirit. NASA, and especially 
the men and women who work at the Johnson Space Center, face 
new and exciting challenges.
    In the near term we must return the space shuttle to 
flight, consistent with updated safety precautions, since the 
shuttle is a critical link in the President's plans for the 
future. The shuttle will transport the remaining components to 
complete the international space station. The space station 
will serve as a research center to increase our understanding 
of long-term exposure to space and as a springboard to the Moon 
and eventually to Mars. The President clearly recognized what 
many in this room know to be true--the country, NASA and the 
Johnson Space Center need a new vision.
    His new vision will reinvigorate the space program and 
capture the public's imagination. There has been much 
discussion recently about the economy, other countries 
competing for jobs in this country, whether it's manufacturing, 
computer programming and business support functions. Some 
advocate trade barriers and other protectionist measures. 
Instead, I believe we must continue to strive for excellence to 
make sure the United States will always be the world's 
technological leader.
    As a re-energized NASA and contract community can play a 
critical role in the larger American economy to maintain our 
position as technological leaders, a daring and challenging 
space program will attract the best and brightest by 
encouraging more American students to study engineering, 
computer programming and the sciences. NASA can serve as the 
intellectual catalyst for development of a new generation of 
technology, much like previous NASA innovations have led to the 
development of things that we take for granted today like 
global positioning systems and CAT scan equipment.
    Mr. Chairman, I want to express my appreciation for the 
opportunity to be with you here today and, again, welcome you. 
In addition, I can assure you that Senator Hutchison and I, on 
behalf of the Senate and Congressman DeLay, Majority Leader 
DeLay, will do everything we can to work with you to accomplish 
this important vision. Thanks again for being here.
    Senator Brownback. Thank you, Senator Cornyn. I appreciate 
that, and I talked with Senator Hutchison when we were setting 
this hearing up and she wanted to be here, but could not 
because of other commitments. She's on the Commerce Committee 
and is a strong supporter of the space program and NASA.
    You have no better supporter in all of Washington than Tom 
DeLay. I remember Tom talking about a permanent mission, 
permanent establishment and colonies on the Moon when most 
people kind of thought of that as a pretty wild idea, Tom. At 
the time I remember myself thinking twice or more about that, 
yet, knowing your ability. You've been right on a lot of these 
things early on and you're right on this one, too.
    And so, I'm delighted to have Tom DeLay here as the House 
Majority Leader, but also, and more importantly, as a key and 
strong supporter of the NASA program and space exploration.

                 STATEMENT OF HON. TOM DeLAY, 
                     CONGRESSMAN FROM TEXAS

    Mr. DeLay. Thank you, Mr. Chairman.
    I am really thrilled that you're here. Your timing is 
absolutely perfect. This is the right time to be here to 
discuss the future of space and I'm glad to be here with my 
colleague and my Senator John Cornyn and I'm glad to--and I 
know Kay Bailey Hutchison is paying attention to this issue as 
well as to this hearing. John Cornyn has done an incredible job 
already in a very short period of time, as if he was a veteran. 
He hit the ground running when he--when he entered the Senate 
and has distinguished himself in a very short period of time. 
So, it's great to be with you, Senator.
    I am really honored to be here today to speak to this body 
and the Subcommittee on the President's bold vision for NASA. 
Not only for the privilege of testifying before the upper body 
but also the privilege of welcoming the Subcommittee to my own 
backyard and because, Senators, the men and women you will meet 
during your stay here, the space community of the Bay Area-
Houston, many of whom are my own constituents, are among the 
finest minds, the finest public servants and the finest people 
I have ever known. These are the people who won the space race, 
who put a man on the Moon, who designed and operate the 
International Space Station and who fly the only reusable 
launch vehicle, the space shuttle. They're the people who took 
mankind into space and, Mr. Chairman, they're the people who 
will take us there again.
    The success of NASA's Mars rovers, the Spirit and 
Opportunity, has captured the imagination of our Nation and of 
our world. Since the Spirit rover landed on the surface of Mars 
earlier this year, NASA's website has received almost 6 billion 
hits. In less than 2 months, NASA has experienced more Internet 
traffic than any Federal Government website has ever had in a 
whole year. So, lest we have doubts, mankind's fascination with 
space and the red planet, in particular, is alive and is well.
    And as such, the timing is perfect. After more than two 
decades of brilliant ingenuity on the space station and the 
space shuttle, for the President's plan to reinvigorate human 
space flight program, first to return us to the Moon and, 
ultimately, to send a manned mission to Mars. Having lived in 
this area most of my life and having represented many in the 
Johnson Space Center community for years, the President's 
speech last month is exactly what I believe NASA has needed for 
a long time and that's a new vision.
    The vision is bold and dramatic, thrilling, really, when 
you think about the risks and the rewards involved, but it's 
also realistic and it's practical. The pivot toward the Moon 
and Mars can't be made overnight and the President's vision 
accounts for the necessary transfer of time, energy and 
resources into the new project. The new vision lays out a 
multi-track program to focus research, planning and exploration 
on new goals.
    The first step, returning the space shuttle to flight as 
soon as possible, with eye toward completing assembly on the 
International Space Station can begin soon. The shuttle and the 
station are vital components of NASA and vital components of 
the President's vision. They represent the springboard that 
will vault us into this new era of exploration.
    And as the space station is completed, NASA will focus its 
station research on bioastronautics, the impact of space travel 
on the human body. Questions about prolonged human exposure to 
radiation and microgravity are pivotal to human survival on the 
Moon and during the long trip to Mars. And these questions 
can't be answered without the laboratories of the space station 
and when they are answered, the benefits will be reaped here on 
Earth as much as they are in outer space.
    The Senator from Texas has already talked about all the 
benefits that we reap from the space program and the shuttle, 
like the programmable pacemaker, the MRI, the portable X-ray 
machine and the automatic insulin pump before them. Solutions 
to problems of prolonged space travel will answer medical 
questions that face doctors and patients back here on terra 
firma. Exploration, by its very nature, deals in new territory.
    Just as seafarers long ago developed sextants and 
astrolabes, which, ultimately, served humanity for centuries, 
so, too, has NASA developed technologies that seem limited in 
scope but which now are integral parts of modern life. In 
addition to medical breakthroughs, NASA's work over the years 
has introduced the world to touchtone telephony, cellular 
phones and the unquantifiable communications and national 
security benefits of satellite technology. The list goes on and 
on.
    And I'm not insensitive to the concerns many have about 
this ambitious new vision in light of the current fiscal 
situation, but I believe money spent responsibly on focused, 
goal-oriented space exploration like the President has outlined 
is an investment of inestimable value.
    Technological innovations, like those we can expect to reap 
from such exploration, will lead to greater economic strength 
and military security here at home; and to my mind, space 
exploration, like nautical exploration centuries ago, is 
inseparable from economic strength and military security. NASA 
has the experience and the expertise to do this, Mr. Chairman. 
And if you ask them, I'd bet most of the folks here at the 
Johnson Space Center have been waiting for a long time to take 
on the challenge that President Bush has issued.
    I firmly hope those of us in Congress will give them the 
support they need to get the job done. It will be tough 
convincing our colleagues how vitally important this mission 
is. In addition to its direct benefits to our collective 
knowledge, advances in security, healthcare and communication 
technology, America's mission to Mars will inspire a generation 
of children to become scientists and engineers and, more 
fundamentally, to dare to dream.
    Thanks to the President we have an opportunity to do great 
things, Mr. Chairman; and I look forward to working with you 
and the Senate to educate and convince our colleagues both in 
the House and the Senate of our need to seize this opportunity. 
Thank you, Mr. Chairman. Thank you for being in the Bay Area/
Houston area.
    Senator Brownback. Thank you, Tom. I appreciate it and your 
testimony.
    Mr. Readdy, we want to bring you up to be the first panel. 
Mr. William Readdy, Associate Administrator for Space Flight 
National Aeronautics Space Administration out of Washington. As 
I noted to you earlier, both Senator Cornyn and Majority Leader 
DeLay may have to leave at some time during the hearing with 
other commitments, but I'm very appreciative to both the 
gentlemen for being here for the hearing.
    Mr. DeLay. I appreciate that, Mr. Chairman. I might say 
I've already heard Mr. Readdy.
    Senator Brownback. Thanks for joining us. I appreciate it.
    And I understand the Johnson Space Center director is here, 
General Howell.
    General Howell. Yes, sir.
    Senator Brownback. Sir, thank you very much for allowing us 
to hold this hearing here.
    General Howell. We're delighted you're here, sir. On behalf 
of our 10,000 employees and the wonderful people here who 
support us, we just want to welcome you, say we're delighted 
you're here and we're very excited about carrying out the 
President's vision in the days ahead.
    Senator Brownback. Thank you. I've been looking forward to 
this hearing for a while because I wanted to find out from the 
people here what they were viewing and looking at. Just one 
additional comment as we're getting y'all settled--and Tom 
DeLay mentioned this--regarding the inspiration for the next 
generation. To me, this is the incredible and tangible value of 
what this mission's about and I mean both terms, incredible and 
intangible value.
    One short vignette. I was a White House fellow about 12 
years ago and one of the guys I was a fellow with went through 
the naval academy. The reason he went through the Naval Academy 
was because he saw these astronauts flying and going to the 
Moon when he was a much younger man, and said to his dad: ``I 
want to be an astronaut.''
    His dad said ``Well, if you want to be an astronaut, you've 
got to go to the Naval Academy. Most of these guys are Naval 
Academy.''
    Now, General Howell, I recognize that probably doesn't 
apply to you. Which academy did you go to?
    General Howell. I'm a graduate of the University of Texas, 
sir.
    Senator Brownback. Oh, OK.
    General Howell. I did not qualify to be an astronaut.
    Senator Brownback. That would be the ``Longhorn Academy.''
    The reason I say this is because he went to the Naval 
Academy to be an astronaut. He ended up being the captain of an 
aircraft carrier for us, which is the largest asset that we 
have in the U.S. military and he's in charge of it. He wouldn't 
have been there but for the dream of space. And how many 
millions of children around the world are inspired because 
we're going there? To me, that's the thing that I so want us to 
do--to inspire that 12-year-old boy in Minneapolis, Kansas, 
that's looking at this and saying ``I want to go there, I'm 
going to study science and engineering and I'm going to go to 
the academy. I'm going to push myself because we're going 
there.'' This is an incredible value.
    So, I'm delighted that you're all here. Mr. Readdy, I just 
had you down as testifying. I'm happy to have the whole group 
or you may want to introduce your team and then divvy it up any 
way you'd like.
    But thank you for coming here and the floor is yours.

             STATEMENT OF WILLIAM READDY, ASSOCIATE

            ADMINISTRATOR FOR SPACE FLIGHT, NATIONAL

 AERONAUTICS AND SPACE ADMINISTRATION; ACCOMPANIED BY DR. MARY 
               KICZA, ASSOCIATE ADMINISTRATOR FOR

      BIOLOGICAL AND PHYSICAL RESEARCH; RETIRED U.S. NAVY

      REAR ADMIRAL CRAIG STEIDLE, ASSOCIATE ADMINISTRATOR

       FOR EXPLORATION SYSTEMS; AND GENERAL JEFF HOWELL,

        ADMINISTRATOR OF THE JOHNSON SPACE FLIGHT CENTER

    Mr. Readdy. Mr. Chairman, thank you.
    I think if you were to conduct your straw poll here today, 
the excitement in this room and certainly here at the Johnson 
Space Flight Center and all of NASA is palpable. I had a chance 
to do my own straw poll at home with my kids, Sean, Peter and 
Maureen and they are that next generation of explorers. I think 
there are stories like that throughout this room. This is an 
exciting and bold new vision for space exploration that is 
guaranteed to excite the next generation.
    With me today, I have Mary Kicza. She's in charge of 
biological and physical research, Associate Administrator at 
NASA; General Howell, the director of the Johnson Space Flight 
Center; and Admiral Craig Steidle, who is newly on board to 
head up our exploration initiative.
    Senator Brownback. OK. Head up this exploration initiative?
    Mr. Readdy. Correct.
    Admiral Steidle. Certainly. Thank you.
    Mr. Readdy. I have a written statement for the record; and 
in the interest of time, I'll just go ahead and summarize it.
    Senator Brownback. Your written statement will be placed in 
the record.
    Mr. Readdy. Thank you, Mr. Chairman.
    The President has presented a bold, new, forward-thinking, 
practical vision, and a responsible vision in his renewed 
spirit of discovery. Pursuing that vision on behalf of the 
American public, NASA will explore answers to fundamental 
questions of importance to science and society, develop 
revolutionary technologies and capabilities for the future 
while maintaining good stewardship of the taxpayer's dollars.
    The President's commission on the implementation of U.S. 
space exploration policy, led by former secretary of defense 
and secretary of the Air Force Peter Aldridge, began its 
deliberations last week and will report on the implementation 
strategies for the vision in the coming months; this policy's a 
product of months of extensive and careful deliberations. The 
importance of these deliberations increased with the findings 
of the Columbia Accident Investigation board released last 
August.
    These deliberations also form the basis for formulating the 
President's Fiscal Year 2005 budget request for NASA of $16.2 
billion, representing an increase of 5.6 percent over the 
previous year. The new U.S. space exploration policy's 
fundamental goal is to advance scientific, national security, 
and economic interest through a robust space program. In 
support of this goal NASA will implement a sustained, 
achievable and affordable human space flight program that calls 
for the return of the space shuttle to flight as soon as safely 
feasible, in order to complete the assembly of International 
Space Station, a return to the Moon by the year 2020 in 
preparation for human exploration of Mars and other 
destinations.
    We think this will promote international and commercial 
participation in these interests and further U.S. scientific, 
security and economic benefits. NASA will plan and implement an 
integrated, long-term robotic and human exploration program 
measured by milestones and executed on the basis of available 
resources, using our accumulated experience and technology as 
they become ready.
    Space shuttle, our return to flight as soon as practicable. 
I was down at Galveston the last 2 days for the shuttle summit, 
where we're refocusing what was formerly the service life 
extension program with nearer term objectives of return to 
flight and assembly of International Space Station--to fulfill 
our international commitments and build a premier research 
platform in the space that will allow us to pursue our 
exploration objectives. We will determine in the next year how 
best to optimize the use of the space shuttle fleet to do that 
assembly and assure for the remainder of its life that that 
investment is sound and focused on safety, reliability and 
maintainability during this period.
    International Space Station's goals will be refocused on 
the human condition and understanding the fundamental 
biological challenges to enable astronauts to survive for long-
duration missions in space. The budget includes $1.9 billion 
for ISS assembly; and while we must work diligently to return 
safely to flight, we must not forget that orbiting the Earth 
right this minute on board that International Space Station are 
Mike Foale and Alexander Kaleri.
    Tomorrow they'll be conducting the tests on board with 
their Arlon space suits to facilitate a space walk next week to 
inspect the space station and ready it for the autonomous 
transfer vehicle's arrival sometime next year.
    Achieving a full-time human presence on board International 
Space Station offers us a tremendous opportunity to study human 
survival in a hostile environment in space and to assess how to 
overcome the technological hurdles of increased duration space 
flight. The Space Station plays a key role in preparing us for 
a human journey into the solar system, first to the Moon and 
then to Mars.
    New Space transportation capabilities, Project 
Constellation is a new crew exploration vehicle and Admiral 
Craig Steidle will be in charge of that effort; to provide crew 
transportation for exploration missions beyond lower orbit. 
$428 million is budgeted for this project with an initial 
unpiloted test flight planned as early as 2008.
    Also, we intend to undertake lunar exploration and 
demonstrate abilities that enable to sustain human and robotic 
exploration of the Moon, Mars, and other destinations within 
the solar system. The budget provides $70 million for robotic 
lunar test beds and increases to $420 in Fiscal Year 2009.
    Exploration to Mars has, I think, over 6 billion web hits 
thus far of which over 50 million are individual web addresses 
that include the likes of AOL, which counts as a single address 
where there are millions of subscribers. The interest in this, 
as we've looked at the demographics, includes, obviously, the 
academic, scientific community; but, more importantly, fully 
half are concerned citizens, interested citizens and children 
that are being inspired by the robotic exploration that's 
ongoing right now.
    Enabling technologies, Project Prometheus--that's a nuclear 
propulsion power generation--budget provides $438 million for 
that and investments in advanced human and robotic technology 
systems. We also have included incentives for private 
enterprise. There's $10 million in this year's budget to 
purchase launch services from emerging launch vehicle 
providers.
    There's a commitment to obtain commercial services in the 
order of $140 million to support International Space Station, 
as we phaseout the space shuttle. That, plus we intend to honor 
our commitments elsewhere within NASA and our other important 
missions and institutional goals. To successfully execute our 
exploration vision, NASA will refocus its organization, create 
new offices--Admiral Steidle is doing that as we speak--and 
realign ongoing programs to further support our exploration 
agenda.
    Craig Steidle is with me today, as is Mary Kicza. I'd like 
to sum up by stating as the President stated in his speech, 
we're embarking on a journey not a race. We begin this journey 
of exploration and discovery knowing that many years of hard 
work and sustained effort will be required so that we can look 
forward to achieving concrete results in the near term. The 
vision makes the needed decisions for long-term U.S. space 
leadership, provides an exciting step of major milestones for 
human and robotic missions and invites new ideas and 
innovations for accomplishing this bold new vision.
    It will provide an opportunity for new generations of 
Americans to explore, innovate, discover and reach our Nation 
in ways that today are unimaginable. Fortune favors the bold. 
Thank you, Mr. Chairman.
    [The prepared statement of Mr. Readdy follows:]

Prepared Statement of William Readdy, Associate Administrator for Space 
         Flight, National Aeronautics and Space Administration
    Mr. Chairman, thank you for this opportunity to join you in the 
beautiful state of Texas to discuss the President's vision for U.S. 
Space Exploration and NASA's plans for implementing this vision. I am 
accompanied today by two of my NASA colleagues, Dr. Mary Kicza, 
Associate Administrator for Biological and Physical Research, and 
Retired U.S. Navy Rear Admiral Craig Steidle, Associate Administrator 
for Exploration Systems.
    On January 14, the President visited NASA Headquarters and 
announced his Vision for U.S. Space Exploration. In his address, the 
President presented a vision that is bold and forward-thinking, yet 
practical and responsible--one that explores answers to longstanding 
questions of importance to science and society and will develop 
revolutionary technologies and capabilities for the future, while 
maintaining good stewardship of taxpayer dollars.
    The vision forms the basis of the new U.S. space exploration 
policy, ``A Renewed Spirit of Discovery,'' a copy of which is appended 
to this testimony as Enclosure 1. This policy is the product of months 
of extensive and careful deliberation. The importance of these 
deliberations increased with the findings of the Columbia Accident 
Investigation Board, which emphasized the importance of setting clear, 
long-term goals for the Nation's human space flight program. Inputs 
from Members of this Committee and other Members of Congress informed 
the Administration's deliberations. Many others contributed ideas for 
the future of the space program. These deliberations were also the 
basis for formulating the President's FY 2005 Budget request for NASA. 
A commission will advise NASA on specific issues for implementation of 
the policy's goals within four months.
    Today, I will summarize the President's FY 2005 budget request for 
NASA, discuss the goals set forth in the new U.S. space exploration 
policy, walk you through the major implementation elements and their 
associated budget details, explain the implications of this directive 
for NASA's organization, and describe what the Nation's future in 
exploration and discovery will look like in the coming years.
FY 2005 Budget Summary
    The President's FY 2005 Budget request for NASA is $16.244 billion, 
a 5.6 percent increase over FY 2004, as reflected in Enclosure 2. The 
NASA budget request is designed with four key goals in mind:

        Compelling--The budget fully supports the U.S. Vision for Space 
        Exploration, and provides for ongoing NASA mission priorities 
        such as Aeronautics and Earth Science.

        Affordable--The budget is fiscally responsible and consistent 
        with the Administration's goal of cutting the Federal deficit 
        in half within the next 5 years. NASA's FY 2005 budget will 
        increase by $1 billion over 5 years, when compared with the 
        President's FY 2004 plan; that is an increase of approximately 
        5 percent per year over each of the next 3 years and 
        approximately 1 percent for each of the following 2 years.

        Achievable--The budget strategy supporting the vision will not 
        require large balloon payments by future Congresses and 
        Administrations. Unlike previous major civil space initiatives, 
        this approach is intentionally flexible, with investments in 
        sustainable exploration approaches to maintain affordability. 
        After FY 2009, the budget projects that the exploration vision 
        can be implemented within a NASA budget that keeps pace with 
        inflation.

        Focused--The budget begins the alignment of NASA's program 
        structure with the exploration vision. We now have the needed 
        compass from which to evaluate our programs and make the needed 
        tough decisions.
Vision Goals
    The fundamental goal of this new policy is to advance U.S. 
scientific, security, and economic interests through a robust space 
exploration program. In support of this goal, NASA will:

  <bullet> Implement a sustained and affordable human and robotic 
        program to explore the Solar System and beyond;

  <bullet> Extend human presence across the Solar System, starting with 
        a human return to the Moon by the year 2020, in preparation for 
        human exploration of Mars and other destinations;

  <bullet> Develop the innovative technologies, knowledge, and 
        infrastructures both to explore and to support decisions about 
        destinations for future human exploration; and

  <bullet> Promote international and commercial participation in 
        exploration to further U.S. scientific, security, and economic 
        interests.
Implementation Elements and Budget Highlights
    To achieve these goals, NASA will plan and implement an integrated, 
long-term robotic and human exploration program, structured with 
measurable milestones and executed on the basis of available resources, 
accumulated experience, and technology readiness. The policy envisions 
the following major implementation elements:

    Space Shuttle--NASA will return the Space Shuttle to flight as soon 
as practical, based on the recommendations of the Columbia Accident 
Investigation Board. The budget includes $4.3 billion for the Space 
Shuttle, a 9 percent increase above FY 2004. Included in this total is 
an estimated $238 million for Return to Flight (RTF) activities in FY 
2005. The RTF activities are under evaluation to confirm the estimated 
cost and associated out year phasing. The focus of the Space Shuttle 
will be finishing assembly of the International Space Station (ISS). 
With its job done, the Space Shuttle will be phased out when assembly 
of the ISS is complete, planned for the end of the decade. NASA will 
determine over the next year how best to address the issues associated 
with the safe retirement of the Space Shuttle fleet.
    International Space Station--NASA plans to complete assembly of the 
International Space Station (ISS) by the end of the decade, including 
those U.S. components that will ensure our capability to conduct 
research in support of the new U.S. space exploration goals and those 
planned and provided by foreign partners. The budget provides $1.9 
billion for ISS assembly and operations, a 24 percent increase above FY 
2004. This increase forward funds $100 million in reserves to partially 
restore planned near-term reserve levels following the $200 million 
Congressional cut to Space Station in FY 2004 and provides $140 million 
in new funding for transportation services to the Space Station. We 
will separate, to the maximum extent practical, crew and cargo 
transportation for both ISS and exploration missions. NASA will acquire 
ISS crew transport as required and cargo transportation as soon as 
practical and affordable. NASA envisions that commercial and/or foreign 
capabilities will provide these services.
    NASA anticipates that any adjustments in existing ISS Partner 
responsibilities as a result of the new U.S. space exploration policy 
can be accommodated within the existing ISS agreements. The ISS 
Multilateral Coordination Board is scheduled to meet today to begin the 
process of coordination within the Partnership on implications to the 
ISS resulting from the new policy. The Administration is also prepared 
to address issues associated with obtaining foreign transportation 
services to the Space Station, including provisions of the Iran 
Nonproliferation Act, but until the ISS Partnership adopts a specific 
implementation strategy, it is premature to identify specific issues.
    U.S. research activities aboard the ISS will be focused to support 
the new exploration goals, with an emphasis on understanding how the 
space environment affects astronaut health and capabilities, and on 
developing appropriate countermeasures to mitigate health concerns. ISS 
will also be vital to develop and demonstrate improved life support 
systems and medical care. Consistent with this focus, the budget 
provides $343 million, a 61 percent increase above FY 2004, for 
bioastronautics research to understand and mitigate risks to humans on 
exploration missions. Over the next year, the Biological and Physical 
Research Enterprise will conduct a thorough review of all research 
activities to ensure that they are fully aligned with and supportive of 
the new exploration vision.
    New Space Transportation Capabilities--The budget provides $428 
million to begin a new Crew Exploration Vehicle, named Project 
Constellation, that will provide crew transport for exploration 
missions beyond low-Earth orbit. The current budget planning is based 
on formulation concept studies to be conducted in FY 2004, preliminary 
design activities conducted in FY 2005 and FY 2006, a System Design 
Review in FY 2005, and a Preliminary Design Review in FY 2006. NASA 
plans to develop Project Constellation in a step-by-step approach, with 
an initial unpiloted test flight as early as 2008, followed by tests of 
progressively more capable designs that provide an operational human-
rated capability no later than 2014. Project Constellation may also 
provide transportation to the Space Station, but its design will be 
driven by exploration requirements.
    NASA does not plan to pursue new Earth-to-orbit transportation 
capabilities, except where necessary to support unique exploration 
needs, such as a heavy lift vehicle. The budget discontinues the Space 
Launch Initiative, although knowledge gained on the Orbital Space Plane 
will be transferred to Project Constellation.
    Lunar Exploration--NASA will undertake lunar exploration and 
demonstration activities to enable sustained human and robotic 
exploration of Mars and other destinations in the Solar System. 
Beginning no later than 2008, NASA plans to launch the first in a 
series of robotic missions to the Moon to prepare for and support human 
exploration activities. The budget provides $70 million for these 
robotic lunar test beds, increasing to $420 million by FY 2009. The 
policy envisions the first human expedition to the lunar surface as 
early as 2015, but no later than 2020. These robotic and human missions 
will further science and demonstrate new approaches, technologies, and 
systems--including the use of space resources--to support sustained 
human exploration to Mars and other destinations.
    Exploration of Mars--The stunning images we have received from Mars 
are just the beginning of future Mars exploration. NASA will enhance 
the ongoing search for water and evidence of life on Mars by pursuing 
technologies in this decade for advanced science missions to Mars in 
the next decade. Also starting in the next decade, NASA will launch a 
dedicated series of robotic missions to Mars that will demonstrate 
greatly enhanced robotic capabilities and enable future human 
exploration of the Red Planet. The budget provides $691 million for 
Mars Exploration, a 16 percent increase over FY 2004, and will double 
Mars Exploration funding by FY 2009. NASA will conduct human 
expeditions to Mars and other destinations beyond Earth orbit on the 
basis of available resources, accumulated experience, and technology 
readiness.
    Other Solar System Exploration--Over the next two decades, NASA 
will conduct an increasingly capable campaign of robotic exploration 
across the Solar System. The budget provides $1.2 billion for Solar 
System Exploration missions to Jupiter's icy moons, to Saturn and its 
moon Titan, to asteroids and comets, and to other Solar System bodies. 
These missions will search for evidence of life, help us to understand 
the history of the Solar System, and search for resources.
    Extrasolar Planets--NASA will launch advanced space telescopes that 
will search for Earth-like planets and habitable environments around 
other stars. The budget includes $1.1 billion for the Astronomical 
Search for Origins, a 19 percent increase over FY 2004, to support 
Hubble Space Telescope operations, the recently launched Spitzer Space 
Telescope, James Webb Space Telescope development, as well as three 
future observatories. This funding also supports investments to extend 
the lifetime of the Hubble Space Telescope to the maximum extent 
possible without a servicing mission.
    Enabling Capabilities--NASA will pursue a number of key 
capabilities to enable sustainable human and robotic exploration across 
the Solar System. Among the most important of these capabilities is 
advanced power and propulsion, and the budget provides $438 million for 
Project Prometheus to develop these technologies for future robotic and 
human exploration missions. The budget also includes $636 million in 
other Human and Robotic Technology funding to pursue sustainable 
approaches to Solar System exploration, such as reusable and modular 
systems, pre-positioned propellants, space resource utilization, 
automated systems and robotic networks, and in-space assembly. These 
technologies will be demonstrated on the ground, in orbit, and on the 
Moon beginning in this decade and extending into the next to help 
inform future exploration decisions. The budget projects that funding 
for these Human and Robotic Technology investments will grow to $1 
billion by FY 2009.
    The budget also includes innovative opportunities for U.S. 
industry, academia, and members of the public to help meet the 
technical challenges inherent in the new space exploration vision. The 
budget includes $20 million for the new Centennial Challenges program, 
which will establish competitions to stimulate innovation in space and 
aeronautical technologies that can advance the exploration vision and 
other NASA missions. The budget also provides $10 million for NASA to 
purchase launch services for its payloads from emerging launch vehicle 
providers. And as previously mentioned, the budget includes $140 
million for Space Station transportation services.
    Ongoing Priorities--The budget supports the vision for space 
exploration, while maintaining NASA commitments in other important 
roles and missions.
    NASA continues its commitment to helping understand our changing 
global climate. The budget makes NASA the largest contributor to the 
interagency Climate Change Science Program with $100 million for the 
Climate Change Research Initiative. The budget includes $560 million 
for Earth Science research, a 7 percent increase above FY 2004, to 
support research on data from 80 sensors on 18 satellites currently in 
operation. Work also continues on Earth observation missions in 
development or formulation, including $141 million (a 36 percent 
increase from FY 2004) for the National Polar Orbiting Environmental 
Satellite System Preparatory Project, $42 million for the Landsat Data 
Continuity Mission, and $240 million (a 37 percent increase from FY 
2004) for missions in formulation, such as the Orbiting Carbon 
Observatory, Aquarius and Hydros.
    NASA maintains planned Aeronautics Technology investments to 
improve our Nation's air system. The budget includes: $188 million, a 4 
percent increase above FY 2004, for technology to reduce aircraft 
accidents and improve the security of our Nation's aviation system 
against terrorist threats; $72 million, an 11 percent increase above FY 
2004, for technology to reduce aircraft noise and improve the quality 
of life for residents living near airports; $209 million for technology 
to reduce aircraft emissions and improve environmental quality; and 
$154 million for technologies to increase air system capacity and 
reduce delays in the Nation's airports.
    NASA will continue to make fundamental advances in our knowledge of 
the Sun and the Universe. The budget provides $746 million for Sun-
Earth Connection missions, including the Solar Dynamics Observatory and 
the Solar-Terrestrial Relations Observatory. The budget also provides 
$378 million for Structure and Evolution of the Universe missions, 
including the Chandra X-ray Observatory and three major missions 
currently under development.
    NASA also maintains its role in science, engineering and math 
education. The budget includes $10 million for the newly authorized 
Science and Technology Scholarship program, which will help attract the 
Nation's best college students to NASA science and engineering careers. 
The budget also provides $14 million for the NASA Explorer Schools, 
which seeks to attract students to mathematics and science during the 
critical middle school years. The Explorer Schools program is entering 
its third phase and will be selecting 50 new schools for a total of 150 
participating schools.
    Management of Human Capital, Facilities and Institution--NASA has 
earned the distinction of being the only Federal agency to earn top 
grades for the Human Capital and Budget and Performance Integration 
initiatives under the President's Management Agenda. Congress recently 
passed the NASA Workforce Flexibility Act. NASA is grateful for the 
hard work of this Committee in shaping this legislation to provide 
necessary flexibilities to better manage the NASA workforce. These 
flexibilities will be critical to implementing the exploration vision. 
The budget includes $25 million in FY 2005 to begin to address critical 
workforce skill and aging issues. NASA ratings have also improved in 
the Competitive Sourcing and E-Government initiatives, resulting in 
more total improvements than any other agency. Although we received a 
disclaimed opinion on our recent audit statement, we are determined in 
pursuing the right path in Financial Management in bringing on a new 
financial system that will standardize accounting across the Agency and 
provide the necessary tools for improved program management. NASA 
remains committed to management excellence and believes it is essential 
to implementing the new exploration vision.
    The budget includes funding for critical institutional 
capabilities, including $77 million for the NASA Engineering Safety 
Center and $27 million for Independent Verification and Validation. The 
budget also provides $307 million, a $41 million increase versus FY 
2004, for facilities maintenance.
Organizing for Exploration
    To successfully execute the exploration vision, NASA will re-focus 
its organization, create new offices, align ongoing programs, 
experiment with new ways of doing business, and tap the great 
innovative and creative talents of our Nation.
    The President has issued an Executive Order creating a commission 
of private and public sector experts to advise on these issues. Former 
Undersecretary of Defense and Secretary of the Air Force, Pete 
Aldridge, is Chair of the Commission. The President has named eight 
other commissioners to join Mr. Aldridge. The commission will issue its 
report within four months of its first meeting, which is scheduled for 
February 11, 2004.
    Immediately following the President's speech, we established an 
Exploration Systems Enterprise, which will have responsibility for 
developing the Crew Exploration Vehicle and other exploration systems 
and technologies. Retired U.S. Navy Rear Admiral Craig Steidle, former 
manager of the Defense Department's Joint Strike Fighter Program, is 
heading this new organization. Relevant programs of the Aerospace 
Technology, Space Science, and Space Flight enterprises are being 
transferred to the Exploration Systems Enterprise. The Aerospace 
Technology Enterprise has been renamed the Aeronautics Enterprise to 
reflect its new focus.
    As human explorers prepare to join their robotic counterparts, 
coordination and integration will increase. The Exploration Systems 
Enterprise will work closely with the Space Science Enterprise to use 
the Moon to demonstrate new approaches, technologies, and systems to 
support sustained human exploration. NASA's Space Science Enterprise 
will have responsibility for implementing early robotic testbeds on the 
Moon and Mars and will also demonstrate other key exploration 
technologies--such as advanced power, propulsion, and communications--
in missions to Mars and Jupiter's moons. NASA's Space Science 
Enterprise will eventually integrate human capabilities into 
exploration planning for Mars and other destinations.
    Many other elements of the NASA organization will be focused to 
support this new direction. NASA's Biological and Physical Research 
Enterprise will put much greater emphasis on bioastronautics research 
to enable the human exploration of other worlds. NASA's Office of the 
Space Architect will be responsible for integrating the exploration 
activities of NASA's different Enterprises and for maintaining 
exploration roadmaps and coordinating high-level requirements.
    As we move outward into the Solar System, NASA will look for 
innovative ideas from the private sector and academia to support 
activities in Earth orbit and future exploration activities beyond. 
Many of the technical challenges that NASA will face in the coming 
years will require innovative solutions. In addition to tapping 
creative thinking within the NASA organization, we will leverage the 
ideas and expertise resident in the Nation's universities and industry.
    In his speech, the President directed NASA to invite other nations 
to share in the challenges and opportunities of this new era of 
exploration and discovery, and he directed us to fulfill our standing 
international commitments. We are discussing the impact of our vision 
implementation plans on the ISS with our partners, and as I have 
already indicated we will complete the assembly of the ISS. The 
President called our future course of exploration ``a journey, not a 
race,'' and other nations have reacted positively to the President's 
guidance. Several have already contacted us about joining in this 
journey. Building on NASA's long history and extensive and close ties 
with the space and research agencies of other nations, we will actively 
seek international partners in executing future exploration activities.
    NASA will also invigorate its workforce, focus its facilities, and 
revitalize its field centers. As exploration activities get underway, 
NASA anticipates planning, reviews, and changes to align and improve 
its infrastructure. In order to achieve the exploration vision, we will 
be making decisions on how to best implement new programs. While some 
of these necessary actions will not be easy, they are essential to 
achieving the goals of the overall effort before us. We urge you to 
consider the full context of what we will be proposing rather than any 
isolated, specific action. Such a perspective will allow us to move 
forward in implementing the vision.
FY 2003 Accomplishments
    Much of the NASA's future ability to achieve the new space 
exploration vision is predicated on NASA's many previous 
accomplishments. The most visible NASA successes over the past year are 
the Spirit and Opportunity rovers currently on Mars. Already, the 
landscapes imaged by these twin rovers and their initial science 
returns are hinting at fundamental advances in our understanding of 
early environmental conditions on Mars and whether Mars was once 
capable of sustaining water and the development of life.
    However, Spirit and Opportunity are not the only recent NASA 
mission successes. NASA successfully launched four new Space Science 
missions (including the two Mars rovers), three new Earth Science 
missions, one new NASA communications relay satellite, and completed 
two Space Station deployment missions. Missions in operation have also 
achieved a number of notable successes, including the Stardust 
mission's successful flight through the tail of Comet Wild-2, initial 
images from the recently launched Spitzer Space Telescope, a ten-to 
100-fold improvement in Earth's gravity map from the GRACE satellite, 
the most accurate maps of Earth temperatures to date from the Aqua 
satellite, and new insights into space weather and solar activity from 
Sun-Earth Connection missions.
    NASA exceeded or met 83 percent of its annual performance goals for 
FY 2003. Among these accomplishments were demonstrations of new systems 
to improve air traffic control and to combat aircraft icing, 
improvements in battery, telescope sensor, and life support 
technologies, fundamental advances in understanding states of matter 
from Space Station research, and the implementation of new remote 
sensing tools for tracking diseases and wild fires.
The Nation's Future in Exploration and Discovery
    As the President stated in his speech, we are embarking on a 
journey, not a race. We begin this journey of exploration and discovery 
knowing that many years of hard work and sustained effort will be 
required, yet we can look forward to achieving concrete results in the 
near term. The vision makes the needed decisions to secure long-term 
U.S. space leadership. It provides an exciting set of major milestones 
with human and robotic missions. It pursues compelling science and 
cutting-edge technologies. It invites new ideas and innovations for 
accomplishing this bold, new vision. And it will provide the 
opportunity for new generations of Americans to explore, innovate, 
discover and enrich our Nation in ways unimaginable today. The 
President's challenging vision provides unique opportunities for 
engaging students across the country, ``as only NASA can,'' to enter 
careers in science, engineering, technology and math.
    We sincerely appreciate the forum the Subcommittee has provided 
today, and Dr. Kicza, Adm. Steidle and I look forward to responding to 
your questions.
                     A Renewed Spirit of Discovery
           The President's Vision for U.S. Space Exploration
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Senator Brownback. Thank you very much and I agree with 
that.
    Let me first, before we go on to any questions, 
congratulate you on the two rovers on Mars. What a fascinating 
treat. They're just great pictures and information, working. It 
makes me feel safer in my car knowing it landed in airbags so 
that, you know, I trust my airbag a lot more in that car. It's 
just really a beautiful vision and very encouraging to a number 
of people that that's occurring.
    Second, I want to congratulate you and the people in the 
administration as well on a new vision. I've been after the 
administration for some period of time that we've been less and 
less stuck in lower space orbit. You are doing good work, but 
it doesn't keep us on the balls of our feet leaning forward all 
the time and this one does and this one's going to be a real 
challenge. It seems to me we've got a number of challenges in 
getting there, not the least of which is political, really, 
getting this on through. And those are some of the issues that 
I want to address and ask you about as well.
    We'll start with the Admiral that's going to run the new 
space launch vehicle--or the new----
    Admiral Steidle. Yes, sir.
    Senator Brownback.--vehicle design of it.
    Admiral Steidle. Yes.
    Senator Brownback. Give me 2 minutes of where your thinking 
is regarding the design of this project and how it's going to 
build on the past projects that we've had of designing new 
space vehicles.
    Admiral Steidle. Yes, sir. The reason I was asked to come 
to NASA was, originally, to discuss large integrations of 
systems that could be tied together to produce a product. I was 
the director of the Joint Strike Fighter Program and we pulled 
that program together, harmonized the requirements for that 
particular program and got it started and kicked off. So, in 
those original discussions, I found a tremendous amount of 
enthusiasm that was infectious. Then, I came in one day before 
Thanksgiving and I haven't left yet.
    I am going to apply the lessons learned from the Joint 
Strike Fighter Program and that is to look at the trade studies 
and the pieces that have already been done. There's a lot of 
work on OSP and some other technical maturation programs that 
are applicable to where we're going in the future. I designed 
an office in which I have technologists and operators together 
who will sort through the trade studies and define the 
requirements. With discipline we'll hold those requirements 
through the process. I've got an office of technologists who 
will bring those technologies to fruition through risk 
mitigation and make sure they integrate in this particular 
product. I've got a team down here today looking at the work 
that has already been done on OSP and other particular programs 
to reap those lessons learned and apply them to this particular 
vehicle.
    The program itself is Prometheus, which is the nuclear 
propulsion piece, in space propulsion; it's the CEV system.
    Senator Brownback. CEV system?
    Admiral Steidle. Yes, sir. That is the crew exploration 
vehicle itself.
    And then all these technology pieces that come together. 
So, it's a system of all these pieces being integrated together 
to perform this exploration vision that the Nation has. We're 
also going to apply some new ways of doing acquisitions. Things 
that we have used over in DOD are very applicable and that's 
the discipline that's going to be applied in the program. Then 
we're off and running.
    Senator Brownback. Do you have any initial thoughts on a 
cost of being able to pull together and get this new vehicle? 
What's your budget for doing that?
    Admiral Steidle. Certainly.
    Senator Brownback. Do you have any ideas on that?
    Admiral Steidle. Yes, sir. I've looked at what's in the 
budget right now that goes out to 2009 and there's 
approximately $1.5 billion per year. We have a flight in 2008 
for a performance demonstration, which is a risk mitigation 
plan. There's funding to be able to support that and we also 
have a flight in the year 2011. So, there's $4.5 billion after 
that. I've looked at the assumptions in putting that budget 
together, from my background in other major programs, and it 
fits.
    Senator Brownback. Let me stop you on that point.
    Admiral Steidle. Sure.
    Senator Brownback. You say it fits. A number of people have 
been challenging the budget number----
    Admiral Steidle. Yes, sir.
    Senator Brownback.--on doing this for $11 billion 
reprogrammed internally and 1 billion additional----
    Admiral Steidle. Yes, sir.
    Senator Brownback.--on the vehicle itself. Are you 
comfortable and confident of that budget number given your past 
experience with Joint Strike and looking at what you're putting 
together here?
    Admiral Steidle. Yes, sir, I am. And that was one of the 
first questions I had coming in here. What are the underlying 
assumptions? Where do these figures come from? Has there been 
an independent assessment of those figures? What do you have in 
mind? The Nation's vision articulated by the President as, 
essentially, the initial requirements for what we need to do. I 
can match that with the assumptions that put that budget 
together and I felt very confident we can achieve that and 
that's why I signed on to execute this.
    Senator Brownback. The administrator has talked a number of 
times about how going to the Moon and beyond with this vehicle 
doesn't require any leaps of faith, in that we don't have this 
technology, or breaking any laws of physics.
    In developing the new vehicle it seems to me that the major 
issue of new development is going to be the power generating 
unit, Project Prometheus.
    Admiral Steidle. Yes, sir.
    Senator Brownback. Is that correct in your estimation? And 
I want you to talk a little bit about Prometheus, if that is a 
correct assumption, that that is the major technological issue 
to press forward with.
    Admiral Steidle. Yes, it is a major technological 
achievement. The reactor is doable. The engines on the back 
ends are doable and are actually flying at JPL facilities there 
right now. It's the transfer of the power between the two. We 
have that capability and with the time lines that we have, the 
year 2015 and beyond to demonstrate that capability in flight, 
we'll achieve that.
    The other part of your question is the need for not having 
any significant technological breakthroughs and what we are 
going to apply in the technical maturation program is the 
application of new technologies, increased manufacturing 
capabilities, subsystems, upgrading the integration of those 
particular systems and software into this particular vehicle. 
So, we think we can apply technologies that are there for 
manufacturing these particular vehicles differently than it has 
been done in the past and will not require any inventions.
    Senator Brownback. That last statement, expand that.
    Admiral Steidle. What we did, and I can only go backward 
and tell you what we did in Joint Strike Fighter, which I think 
is applicable here. As we went forward with the actual design 
of the vehicle, we also went forward to industry, what we plan 
on doing here, asking for new, innovative technologies in areas 
such as manufacturing, integration of subsystems, lowering the 
cost of doing business and we got a lot of tech maturation 
proposals. We initiated quite a few of them that found their 
way into those particular vehicles; we intend to do that here 
as well.
    We plan to define the requirements of the vehicle and then 
look across the board at technologies that can reduce the cost, 
increase the manufacturing capability of it, integrate the 
subsystems into those particular vehicles and we have several 
of those technology maturations programs under review already. 
They were simple things that have already been done in 
manufacturing, in life support, habitation, integrated 
subsystems, that have been done and started. We just need to 
refocus those and that's a big part of this program as well.
    There's quite a bit of technology programs that have been 
brought into our enterprise as well. We're refocusing those and 
doing program assessment to make sure they steer toward this 
particular vehicle and the system, in general.
    Senator Brownback. Mr. Readdy, that's one of the things 
that's been striking to me and I'm going to talk about the 
tough questions because those are the ones that people are 
raising. We have a budget deficit of $500 billion. The Congress 
and the President's getting serious about wanting to get back 
to a balanced budget. So, then people say ``Well, then you 
can't do these big, new, expensive programs like this going to 
the Moon and Mars.''
    You know, and my comment is, A, most of it's reprogrammed 
money and, B, we ought to be able to show people--we've got 
enough total money. We just don't have it spent in the right 
places and we're going to reallocate the funds.
    Then other people raise up say ``Well, you can't do it for 
this number in the budget.'' And they'll cite to prior 
proposals to go to Mars and enormous budget figures. What is so 
different about this project than those prior assessments of 
cost of going to Mars?
    Admiral Steidle. I think there are several different 
facets. One is NASA's committed to fulfilling this new 
exploration vision and we've been willing to make the really 
tough trades internally to do that. I think in your opening 
statement you mentioned that NASA is going to receive $1 
billion in the next five-year budget run out, but $11 billion 
will be for reprogramming and reprioritizing among NASA's 
ongoing missions.
    A major portion of that is phasing out the space shuttle. 
It frees up dollars in later years to go ahead and accelerate 
our space exploration vision. Also, when you look at the vision 
that the President spelled out, it puts space shuttle and space 
station into more context in that it fulfills, I think, the 
analog of what Gemini did during the lunar program initially in 
the Sixties. When the President committed us to going to the 
Moon in this decade, we had 15 minutes of suborbital space 
flight in this country, Alan Shepherd. We didn't know among the 
three different competing options for how to get to the Moon; 
we didn't have a rocket booster that could get us there. The 
technologies required were not going to be demonstrated during 
the Mercury era.
    What was on the drawing board for Project Apollo were large 
booster rockets, spacecraft that potentially could go from the 
surface of the Earth to the surface of the Moon or rendezvous 
in Earth or lunar orbit. All that was really not defined when 
the President committed us to do that.
    The Gemini program is where we did the technological 
development and demonstrated the capabilities necessary to 
actually go to the Moon, land successfully and bring the crews 
back. It demonstrated rendezvous, space walks, the ability to 
change orbits and do space navigation, and some maturity and 
reliability in the life support systems and the power 
generation systems we would need to go to the Moon. It also 
demonstrated human endurance and if you go back to that era, 
the notion that people could survive in space for 2 weeks was 
still an open question.
    So, what this new vision does is it puts space shuttle and 
space station in a new context where we're using that as kind 
of the Gemini analog to inform our exploration agenda, to be 
able to go on the Moon and then further on to Mars at some 
point.
    The other thing is that without a date certain to land 
within this decade to do the following, it also frees us to be 
able to work on the technologies that will enable us to do this 
more capably. And I think it also causes that engine of 
ingenuity here within the private sector industry, academia and 
NASA to focus on the problems that we have at hand. So, I think 
all of those, plus our willingness to reprogram within our own 
budget, should give people the confidence that we have 
capability to go off and do it.
    Senator Brownback. And one thing I want to throw out here, 
and I know the Chairman is very interested in this, is you have 
within NASA a number of add-ons that have been put into your 
budget from various Members of Congress for good and worthwhile 
projects. I hope all of them are good and worthwhile projects, 
but they're not ones that NASA has asked for nor has placed in 
there. And if we can take those non-essential monies and put 
them into a very targeted program to the Moon and beyond, we're 
talking in the hundreds of millions of dollars, I believe, in 
looking at your budget to be able to do that and that's going 
to be one of my pushes on the Appropriation Committee. Now, we 
know where we want to go here. Let's get the money that's non-
essential to that mission and make it essential to that 
mission, so that you take those.
    The other thing that's available that we didn't have before 
is there's on-the-shelf technology that you can use that we 
aren't going to have to go out and invent. You can pull those 
things, a number of them; I used the airbag analogy on that. We 
didn't have to invent that one, we had it developed. You got to 
get it up to your specifications and needs but we know how this 
thing works. Instead of discovering and inventing a way, we can 
pull some of these pieces together.
    And I guess, Admiral----
    Admiral Steidle. Sure.
    Senator Brownback.--that's really your task----
    Admiral Steidle. Yes, sir.
    Senator Brownback.--of doing those things.
    Admiral Steidle. Yes, sir. We're out there right now 
exploring what technologies are there, refocusing on ones that 
are necessary, finding the gaps and then looking for programs 
and projects that have already been done, and there's quite a 
bit. Then look at those and do a program assessment for the 
applicability for this particular program.
    Senator Brownback. Mr. Readdy, international cooperation on 
this exploration, what sort of communication have you had from 
other countries of interest in working with us on this project?
    Mr. Readdy. Well, when the President came to NASA and 
presented his bold, new vision, the Administrator had been 
talking on the phone that very morning with the other heads of 
the international space agencies to tell them what it included 
and in the President's remarks he said that this is not a race. 
It's a journey and all will be included, and we solicit the 
international participation.
    I'd say thus far the reaction has been extremely positive. 
Last week we had representatives from all the partner countries 
come in. We went into more detail on what that involves and, in 
fact, it provides more opportunity for them to participate. As 
we refocus our efforts on human biology and some of the 
problems that we need to address directly for exploration, it 
allows the partners to participate in those and it allows our 
principal investigators to partner internationally on other 
disciplines, like materials research and other things. And so, 
this really provides more opportunity for them.
    Also, the notion that we would want to achieve our 
objectives and research sooner with more crew provides 
additional opportunities for our international partners. And 
where we go beyond International Space Station, time will tell; 
but there's tremendous interest and excitement from our 
international partners.
    Senator Brownback. There has been some challenges regarding 
the International Space Station, which has been an 
international project. But then I hear rumors--and I have not 
looked at these numbers--that other countries haven't come 
through with the degree of funding that we wanted them to, or 
that they originally signed on to, in this project or they have 
not done the things that we had asked.
    Is that accurate or inaccurate? Would you answer that 
question concerning the space station, for us to be able to get 
that as a model for this project?
    Mr. Readdy. Well, be happy to get you the details. But I'd 
say in aggregate the partners have been there for us and have 
participated very actively. Their hardware has for the most 
part been delivered. They're making progress on their 
commitments and certainly in the past year the Russians have 
demonstrated their integral----
    Senator Brownback. They really carried the load, haven't 
they?
    Mr. Readdy. They have, in fact.
    So, we expect that to continue; but we will need to include 
them in our discussions of how our participation will change 
because, clearly, as we phaseout the shuttle, there may be more 
reliance on commercial sector logistics or the European-
provided ATV or Russian logistics. All of those are in the 
trade space.
    Senator Brownback. If we phased out the shuttle faster and 
reprogrammed that money toward this project sooner and relied, 
then, on other partners or the commercial sector to take care 
of the International Space Station, can we move up the time-
frame of this project?
    Mr. Readdy. Senator, we looked at that very closely in 
formulating this vision and choosing the time-frame that we 
did, and it looks to us as though the completion of 
International Space Station around the end of the decade is an 
achievable set of milestones.
    We want to make sure that we do it very deliberately, but 
the shuttle is the only vehicle capable of taking those modules 
to the International Space Station, the only vehicle capable of 
conducting the assembly operations that are required. So, the 
shuttle is needed to complete the International Space Station, 
that role. And as soon as we've completed the International 
Partner Core Complete, we'll phase the shuttle out.
    Senator Brownback. Dr. Kicza?
    Dr. Kicza. Kicza.
    Senator Brownback. Kicza, excuse me.
    There have been a lot of challenges to whether or not human 
endurance would survive a mission to Mars and back given the 
length of time that it will take. Project Prometheus, we're 
hopeful, cutting the time-frame down, as I understand, I 
believe a third.
    Admiral Steidle. Yes, sir.
    Senator Brownback. To a third of the current. But you're 
still talking about an extended stay. Can humans survive and do 
this with what we know and what we believe the timeframes will 
be to go to Mars and back?
    Dr. Kicza. Yes. Based on what we know today, we do think 
it's achievable; but there are clearly some countermeasures 
that we're going to have to put in place. Probably the most 
significant is radiational and shielding from radiation. A lot 
of our work on the ground is focused on this right now. In 
fact, just this last October in cooperation with the Department 
of Energy we opened a new radiation line at Brookhaven National 
Laboratory specifically dedicated to NASA's needs to understand 
the impacts of radiation on biological systems and then to 
develop the materials to allow us to shield humans on those 
journeys to the Moon or to Mars or in transit. We do think it's 
achievable. Yes, there's some work to be done but we have the 
tools in place to do it.
    Senator Brownback. Is radiation the major issue or are 
there others?
    Dr. Kicza. Sure. Probably one of the tallest poles is 
clearly radiation. Other countermeasures that we need to put in 
place deal directly with the effects of the microgravity 
environment on our astronauts. We've seen from our research to 
date that astronauts clearly suffer from bone loss. They suffer 
from muscle atrophy in the space environment, problems with 
sleep, and circadian rhythms are upset as you go through 
sunrise and sunset many times a day.
    So, yes, there are issues that we have to face about the 
microgravity environment and that's why the International Space 
Station is so central to our research. It allows us to conduct 
this research; it allows us to understand where the thresholds 
are taking place at which point these symptoms are manifesting 
themselves anywhere from 0G to even close to 1G. We have the 
capability to understand at what point these impacts are 
happening so that, then, we can perform the countermeasures. 
For example, artificial gravity, what are the systems we need 
to put in place to counter-effect the weightless environment?
    And that's what the space station is doing for us right now 
in a laboratory environment where we can conduct those 
experiments.
    Senator Brownback. General Howell, any time you reprogram 
money, particularly $11 billion, you get a lot of people 
enquiring about where they are in this reprogrammed system. I'm 
guessing you're getting a lot of questions like that here. I 
hope people are reacting positively to the phasing out of the 
space shuttle. It's been a great vehicle. It has done a lot of 
work, but we have had tragedy and it's time to move on.
    I hope people are reacting that way in the scientific 
community as well. Are there things that we should be 
communicating or what can you tell me about how people are 
handling the transition?
    General Howell. Senator, we're very excited about the 
vision. Of course, first things first, as you know the Johnson 
Space Center has been a focal point for human space exploration 
for over 40 years and right now we have literally thousands of 
our people involved in the return to flight effort as well as 
the support of the space station. So, you know, what is 
critical to this vision is our return to flight and assembly of 
the station. And that's what we're all about right now here as 
well as the medical and human, clinical research in space. We 
do all that here, too.
    So, our people are fully employed now and in the near 
future.
    At the same time we have been, you know, joined at the hip 
with the shuttle program. That's so important to us, because 
people are concerned about what lies ahead in the future. 
However, I'm doing everything I can to assure them that the 
same people who were needed to develop, assemble and fly the 
shuttle are the same people who are going to be needed to do 
the crew exploration vehicle and all of that. These wonderful, 
talented, committed people are going to be needed for whatever 
NASA does in human space exploration. So, this should be a time 
of great excitement for all of our people and I'm trying to get 
that message across to them, because we're going to be right in 
the middle of all of this. It's just going to be a great time 
for this area, I believe.
    Senator Brownback. General, we get the question a lot and 
it's raised often. I don't know of anybody in a better position 
to answer it than you. Why humans? These rovers are doing 
great. We can do this for a lot less expense. The safety issue 
is a concern and each life is precious to us so that, I mean, 
the safety issue is a very real thing. Why not just do all of 
this by robots, to the Moon and Mars and on?
    General Howell. Sir, the President said it much better than 
I can. I think we are compelled, as a nation, to go beyond, to 
explore. I think as a human race we've always had to go to the 
other side of the hill, go across the ocean. Now it's out in 
space. We have to take inherent risk in exploration, but I 
think it's part of humanity, and as a great Nation, we must do 
great things and lead the way in this. It's just something that 
we have to do. I guess that's the best explanation I can give 
you, sir.
    Senator Brownback. I've argued with people if we don't and 
others do, what does that do to the psyche of a nation?
    General Howell. I personally think that would be the 
beginning of the end for this Nation as a great nation. You 
know, as a leader of the world, it's imperative that we lead 
the world in space exploration. That's my personal opinion.
    Senator Brownback. And if we fail to do it, I just feel it 
sends such a shutter through the system that we're too fearful 
to risk that we won't do it. And plus, to me, it'd be a 
disaster for those who have gone before them and put their 
lives on the line, some of which have been lost, to not carry 
on.
    Mr. Readdy. Sir?
    Senator Brownback. Mr. Readdy?
    Mr. Readdy. If I can add, just like freedom isn't free, 
often space exploration has expended a very awful toll, most 
recently last year, but the fact of the matter is the way we 
honor their legacy is not to quit; it's to press on. It's to 
fulfill the dreams that they had and the dreams of generations 
to come.
    Exploration is part of the human psyche. It's the same 
thing that drives the curiosity of your 2-year-old to learn to 
explore. It's what causes us to relate to the robots and their 
exploration, however slight. With 6 billion hits on the 
Internet, certainly people are excited about this, but what 
those rovers will be able to do in 90 to 120 days a human in a 
space suit could accomplish in an afternoon, in a single space 
walk.
    And so, there's a notion also of productivity. But we are 
explorers by nature.
    Senator Brownback. Well, thank you very much. I look 
forward to working with you and the Chairman and we're working 
on the authorization legislation language. One of the things 
that we'll talk about with the next panel is the use of 
incentives to the private sector to get that capital involved 
and in some cases may be prize money, note that the X factor I 
mentioned in my opening testimony is attracting. I don't know 
how many millions people are spending to get a $10 million 
prize but they're spending a lot of money to do that. And I 
hope we can use that as well here to try to stimulate private 
sector activity and to get that capital motivated and moving 
forward. We may put more of that in the authorizing language as 
well, Mr. Readdy, and I've talked to the administrator about 
that, too.
    Mr. Readdy. And, in fact, I think we have a centennial 
prize already as part of a----
    Admiral Steidle. Yes, you'll see it. There's a budget line 
called Centennial Challenge, which is exactly what you 
described, sir. It is prize money for innovative technologies 
to have application to what we want to do and it's in there and 
it's in my office, the point is to stimulate some innovative 
thinking on private sector to participate.
    Senator Brownback. Just have such a fabulous private sector 
and I--to me in designing this one versus going to the Moon the 
first time around, which really had to be a government project 
when we went to the Moon the first time. I hope to really marry 
into these guys that have a lot of technology and capital. I 
want to marry into their capital and get this thing moving 
further and faster.
    Admiral Steidle. Yes, sir.
    Senator Brownback. With that, we will go to the next panel. 
I want to thank and congratulate you. I've held a number of 
hearings on space, most of which have been tough because, well, 
we've had a difficult time. But it's now time to move on and 
look forward and this is an exciting moment. And I look forward 
to seeing that person on the Moon working and on Mars walking 
in the near future.
    God speed. Thank you very much.
    Mr. Readdy. Thank you, Mr. Chairman.
    Senator Brownback. Our second panel, the private sector 
panel, engage in the private sector with this mission and they 
all consist of Charles Chafer, President of Human Encounter out 
of Houston; Mr. Bob Lorsch. He's President of the RHL Group, 
which is an advertising group and has been interested in 
advertising and its resources and usefulness in space. Some 
very interesting prospects and proposals there; Mr. W. F. 
Mitchell, President of Altair Development Corporation of League 
City, Texas; and Mr. Courtney Stadd, President of Capital 
Solutions out of Bethesda, Maryland. I look forward to the 
presentations from these individuals regarding engagement of 
the private sector capital on the space exploration work.
    Let's see. Mr.--is it Chafer or Schaeffer?
    Mr. Chafer. Chafer.
    Senator Brownback. Chafer. We've got you down first on the 
program. So, please feel free--I will include all of your 
written statements in the record. So, if you'd care to just 
summarize that would be wonderful. If you want to present it 
that would be good, too, and then we'll have questions and 
answers afterwards. Thank you for joining us.

          STATEMENT OF CHARLES M. CHAFER, PRESIDENT, 
                      TEAM ENCOUNTER, LLC

    Mr. Chafer. Thank you, Mr. Chairman. And thank you for your 
leadership in providing the private sector's view here today. I 
will summarize my testimony. From my youth on a Kansas farm to 
my mid-youth launching rockets here in Houston, Texas or 
Matagorda Island, I've spent a long time thinking that 
commercial activities in space are critical and that the 
President has recently committed us to move humanity throughout 
the solar system where I think that there's an important 
critical role for the private sector in that. And I had four 
observations that I wanted to share with you today on that 
subject. I think it's all good news.
    The first is that, as I said, I think the private capital 
is required in order to achieve the President's goals; but, 
fortunately, I also think that it's available. It's required 
because if you listen to Chairman Aldridge at the first meeting 
of the President's commission, there was a lot of discussion 
about sustainability and about, ``Well, maybe we can't do 
business as usual anymore,'' in terms of how we go about 
meeting those goals. I think that's true simply for the point 
that if we can achieve sustainability through private sector 
dollars, that means every dollar that comes in commercially to 
relevant space technology is a dollar the taxpayer doesn't have 
to come up with. It's not a hundred percent tradeoff by any 
means but there is a way to do it cooperatively.
    I think, also, second, the private capital is available for 
space projects. Certainly in my career we've spent and raised 
tens, tens and tens of millions of dollars toward commercial 
ventures. We've heard today about Elon Musk and Paul Allen. 
These are guys that have substantial capital that are currently 
funding commercial space transportation opportunities. And 
certainly with Team Encounter and our flight schedule for next 
year, we've been able to tap into money here in real estate and 
energy and software development. So, I think there's money 
that's required. Fortunately, there's money that's available.
    Second point I wanted to make is that I think today there 
are some encouraging signs that, perhaps, Federal space 
agencies are more open to private capital infusions than 
perhaps they've been in the past. I'll cite two examples that 
I'm personally familiar with and try to draw analogies to the 
President's program. I mentioned that we'll be flying our Team 
Encounter flight one in the fourth quarter of next year for 
public participation, for corporate sponsors and for cutting-
edge technology. We'll be flying advanced solar sail propulsion 
technology that we're teamed with the NASA Langley Research 
Center on.
    We were recently awarded a contract by NASA to fly one of 
their space instruments, that's under test and development, on 
our commercial mission. It's a little bit of a paradigm shift 
in that the private sector wasn't looking to NASA to fly stuff, 
NASA was looking to us to fly stuff and that was really for a 
couple of reasons. One is I think it was best value for the 
government and certainly it was a valuable partner for us to 
have in the form of NASA.
    Secondly, I think it was important that we're risk-sharing 
with NASA. If we don't succeed, we don't get paid; and I think 
that's an important component of private sector risk capital 
can come in and take some of those risks, not all of them by 
any means, again. But it's an important way to leverage the 
genius that I think our country has in private sector funding.
    The third point about working with NASA is we're learning 
to work together; which hasn't been easy. There's a lot of 
flexibility that we have to show as a private company. There's 
an enormous amount of flexibility that NASA's had to show in 
working with us to fly this instrument on our commercial 
mission. So, I think that's good news at NASA. I think that can 
be drawn out to other missions as we look to going to the Moon 
and Mars. There are plenty of opportunities to work together 
with NASA.
    A second thing that I wanted to mention, though, was that 
we ought to look at all Federal agencies. The National Oceanic 
and Atmospheric Administration recently released a request for 
information where they said: ``We need to learn about solar 
storms, but we're willing to do that with our next generation 
spacecraft by issuing a data purchase contract to a private 
company that goes out to L1, a long way out, and puts a 
spacecraft there and brings the data back to us.''
    Again, a bit of a paradigm shift and I think an important 
sign that maybe things are a little bit more friendly in terms 
of private sector and government cooperation. So, my second 
point is that we're beginning to see some encouraging signs and 
we ought to really work on those.
    The third point that I wanted to make was how can we do 
this? And I think government policy should encourage private 
sector access, should encourage the certainty that the private 
sector will be there and third and most importantly, I guess 
from the government's point of view, the government ought to be 
allowed to engage in certain risk management techniques that, 
perhaps, they don't do now.
    On the first point in terms of access, I believe that all 
Federal agencies should seek co-investment opportunities in the 
development of space technologies and applications, as they say 
here in Texas, from the get go. Just don't think of it as an 
afterthought but as you're building Project Prometheus, as 
you're looking at people on the Moon and on Mars, from the very 
beginning how can we encourage the private sector to co-invest 
with us? I think that would be an important sign about access.
    In terms of certainty, I think that private sector 
participation needs to be institutionalized within Federal 
agencies. I'm careful to say not bureaucratized within Federal 
agencies, but the ebb and flow of commercial ability to work 
with space agencies is one of the clearest ways that private 
sectors will not come in. They need some certainty.
    Ultimately all policy is people, I believe; and we were 
very fortunate to be able to work with Dr. Ed Weiler and a 
gentleman down here at the end of the table, named Courtney 
Stadd, who was the Chief of Staff at NASA when we approached 
them with our innovative private sector approach. They served 
as honest brokers on both sides of the table. Probably pulled 
all of their hair out in the process but we're absolutely 
critical to the process of being able to marry my investors, 
who are skeptical about investing, and the government managers 
who are going: ``Who are these guys from Texas and why should 
we talk to them?''
    So, I think it would be useful if we find a way to 
institutionalize. We can't institutionalize Courtney because 
he's left; but if we can create a position in the Federal space 
program world that says ``This is where you come to talk to us 
about commercial space activity,'' I think that would be very 
important.
    My final recommendation on government policy, I put my 
government hat on. Commercial ventures are by their nature 
viewed as perhaps a little bit more risky than the way the 
government does things. That, again, I think is the great 
genius of America; but there are risk management techniques 
available to the government. Simply ensuring government 
activities and payloads or requiring the private sector to do 
that is a way to give those managers who are thinking about 
working with the private sector a little more certainty.
    My final point, Mr. Chairman, is that I believe that if we 
accomplish these goals we'll do a lot of things; we'll be more 
competitive. There'll be less Federal dollars required, but the 
most important thing is that we'll inspire the folks that you 
were talking about. Certainly I'm an example of being inspired 
by the Apollo program. Also, I can tell you we get resumes 
every day of the week from kids. ``How can I be a part of your 
exciting commercial space station? I want to sign up.''
    You know, I can't hire them all but I believe that if we 
expanded the private sector commitment to space, you'd see an 
awful lot of people looking for jobs there and maybe not in 
other arenas that aren't quite so productive toward the goals 
that we all share here today.
    Thank you very much.
    [The prepared statement of Mr. Chafer follows:]

Prepared Statement of Charles M. Chafer, President, Team Encounter, LLC
    Mr. Chairman and Members of the Committee, thank you for holding 
this important Senate hearing in Houston and for giving commercial 
space entrepreneurs the opportunity to offer their valuable perspective 
on how the private sector and NASA may cooperate most effectively to 
assist in the realization of the President's new space policy.
    As a boy spending summers on my grandparents' farm in Republic 
County, Kansas, during the Apollo era, I can recall looking at moonrise 
over their fields and wondering how I could make a contribution to what 
seemed to be that most important human endeavor--the exploration of 
space.
    Years later, as a young man, I was blessed with that very 
opportunity by being fortunate enough to land a position with David 
Hannah, Jr., and former Mercury and Apollo astronaut Deke Slayton at 
Houston, Texas-based Space Services, Inc. of America (SSI). In 1982, 
SSI became the first ever private company to conduct a launch into 
outer space--Conestoga 1.
    Today, I've devoted my career seeking to expand private-sector 
space activities--because success in this arena holds the key to 
humanity's long-term prosperity. We simply must extend our presence 
throughout the solar system.
    May I make four observations that best describe the potential for 
further private-sector/NASA cooperation.
    First, private sector capital is essential and is available to 
fulfill the emerging opportunities of new space age. At the first 
meeting of the President's Commission on Implementation of United 
States Space Exploration Policy, there was much discussion devoted to 
``sustainability'' and to the notion that ``business as usual'' would 
not result in the early achievement of these bold new space 
initiatives.
    Simply put, significant private investment is a key element to help 
the President's initiative achieve sustainability. In an era of tight 
Federal budgets, every private dollar invested in relevant space 
technology development is a dollar not required of the taxpayers.
    Fortunately, significant private investment capital is indeed 
available to support space technology development and application in 
areas of relevance to the new space initiative. The great genius of 
this country lies in the ability to mobilize capital quickly and 
efficiently in pursuit of real opportunities. For example, recently we 
have seen significant investments by successful Internet entrepreneurs, 
including Paul Allen of Microsoft and Elon Musk, founder of PayPal, 
Inc., in new modes of space transportation. Team Encounter, LLC, has 
been able to attract significant capital from some of Houston's leading 
energy, software, and real-estate developers. Generally speaking, I 
believe that investment capital can and will flow into space activities 
under the right set of circumstances.
    My second observation is that there are now encouraging signs 
within various Federal agencies that private investment may be welcome. 
Two examples illustrate vividly this emerging reality.
    Recently Team Encounter was awarded a contract from NASA's New 
Millennium Program to fly its Inertial Stellar Compass aboard our 
Flight One Mission late next year. This contract is important to 
commercial investors for several reasons. NASA has chosen to fly one of 
its experiments, as a secondary payload, on a mission that is primarily 
commercial in nature. We represented a ``best value'' proposition for 
NASA, and NASA represented important additional revenue and enhanced 
stature for us. We are risk sharing with NASA in that only upon the 
success of the mission are we able to collect the second half of the 
contract value. Finally, both NASA and Team Encounter are learning how 
to work together in an ``imperfect'' environment. By that I mean that 
each side has had to exhibit flexibility and accommodation in order to 
reach an acceptable mission profile.
    A second recent example extends beyond NASA to another Federal 
agency with a significant space portfolio, the National Oceanic and 
Atmospheric Administration (NOAA). Last year NOAA published a Request 
for Information (RFI-NESDIS-OSD-002) seeking to understand the 
viability of a ``data purchase'' approach to providing next-generation 
solar-wind data from a commercially operated spacecraft. This request 
also contemplates a risk-and reward-sharing approach to the achievement 
of U.S. Government space needs and, as such, is further evidence that 
creative people in the government and the private sector might well be 
able to work together to achieve common goals.
    The above examples, and others, underline the potential for a 
paradigm shift to take place in government/private-sector interaction 
in the development and application of space technologies. This should 
be encouraged further as we embark upon great new space agendas.
    Third, governmental policy should focus on methods and systems that 
best can offer access and certainty to the private sector while 
offering new risk management tools to governmental managers. I have 
three suggestions.
    First, all Federal agencies -not just NASA--should examine their 
space efforts for co-investment opportunities. New space program 
initiatives should be designed from the outset to encourage private-
sector co-investment whenever possible.
    Second, federal commitment to commercial co-investment in space 
should be institutionalized. not bureaucratized. Ebb-and-flow interest 
in space commerce does not create a positive investment climate. Each 
Federal agency with a space portfolio should have a commercial-space 
advocate. This is paramount. All policy is ultimately embodied in the 
people charged with its implementation.
    At NASA, Team Encounter was extremely fortunate to be able to work 
with Dr. Ed Weiler and his capable staff including Charles Gay and 
others and former Chief of Staff Courtney Stadd, whose long-term 
commitment to including the private sector in space is well known, as 
evidenced by his appearance on today's panel. Without their commitment 
to overcome any barrier and willingness to honestly broker very real 
concerns on both the government's and industry's side of the table, I 
would not be able today to speak to NASA's new interest in private-
sector approaches.
    Third, risk management techniques--for example, insurance coverage 
for Federal payloads--should be permitted as a means to assist agencies 
to accept conventional commercial-risk parameters as they work with 
existing and emerging private-sector space companies.
    My final observation is that a continuous, strong national 
commitment to the inclusion of private investment in space applications 
and exploration will inspire a new generation of engineers and 
entrepreneurs; permit the U.S. to accomplish major new space goals in a 
budget-constrained environment; and help to maintain our leadership in 
an increasingly competitive global space industry.
    Please allow me to elaborate on the first point. Our own Team 
Encounter missions--involving a unique blend of cutting-edge technology 
development, corporate sponsorship and media participation, and direct 
public participation via the internet--continually attract a steady 
stream of resumes, inquiries, and ``how can I help?'' requests from 
young people from every state and across the planet. Space missions can 
be fun, exciting, and meaningful to young people as they contemplate 
their career choices.
    By embracing a new generation of entrepreneurial space companies, 
NASA can help to ensure its own future through the development of 
talented, enthusiastic engineers and managers. Perhaps this increased 
inspiration to a new generation will be the most important legacy of 
increased government/private sector cooperation in space.

    Senator Brownback. Thank you.
    The human soul is meant to be inspired and to yearn and 
it's given an opportunity here. In fact, I have a young man 
from Topeka--I don't know if Alex is still here. Alex, you 
still here? Stand up.
    This is a talented young Kansan who is interning down here 
with the NASA program who's dreamed of doing this all his life 
and his mother has dedicated her life to getting him to his 
dream. And so, you have two people involved in that and done a 
great job. It's a classic example.
    Thanks, Alex.
    Alex. Thank you.
    Senator Brownback. The gentleman who was the one that put 
the most meat on the bones about talking to me about 
advertising and the ability to raise funds through advertising 
with space programs is next to testify. Bob Lorsch, President 
of RHL Group, has done a brilliant advertising work terra 
firma. He wants to take this on a broader scale.
    Bob, welcome.

           STATEMENT OF ROBERT H. LORSCH, PRESIDENT, 
                      THE RHL GROUP, INC.

    Mr. Lorsch. Thank you, sir. And good morning, Mr. Chairman.
    I'm here today to discuss this opportunity, which I think 
is incredibly important and potentially very, very lucrative 
for our country's space program. For more than 30 years, I have 
specialized in advertising and sales promotion for some of the 
biggest companies in the world, including Beatrice Foods, 
Johnson & Johnson, Microsoft, Procter Gamble, all three major 
television networks and numerous other international and 
domestic corporations. I've been involved in private sector 
philanthropy and cause-related marketing for a variety of major 
charitable organizations, including the California Science 
Center, which is the second largest science institution next to 
the Smithsonian in the United States and the gateway of which 
is the Robert H. Lorsch Family Pavilion. Talking about a place 
for young minds to go and learn about what we're here today to 
talk about.
    I've received a ``C'' flag from the White House during the 
Reagan Administration for private sector initiatives and I've 
raised more than ten, probably tens of millions of dollars 
through cause-related marketing programs for organizations that 
are both charitable and private sector educational 
organizations along the lines of the program I'm here to 
discuss today.
    In 1981, President Reagan challenged government to work 
with the private sector, to create programs designed to return 
a portion of the financial burden of government to business and 
industry. I contacted the White House through his press 
secretary, Jim Brady, at that time with an idea for NASA space 
advertising program of noncommercial, and I want to emphasize 
noncommercial and tasteful sponsorship, supportive messages, 
not billboards and logos, to fly inside the space shuttle to 
generate revenue for the space program.
    The proposal suggested that for $1 million a sponsor could 
place this noncommercial message on the inside of the wall of 
the shuttle and at various points during the mission, when 
astronauts were either being interviewed on camera or there 
were camera pans of different experiments in the space shuttle, 
those plaques would be displayed worldwide. The sponsorship 
benefits would include lift-off and launch parties, pictures 
with donates and astronauts, perhaps a visit by an astronaut on 
a sponsored mission to a company's corporate headquarters and 
the right to promote the company's involvement in the space 
program; much like that of an Olympics advertiser could promote 
their involvement with their Olympic program in a responsible, 
supportive way.
    Secretary Brady referred my program to a gentleman by the 
name of Admiral Robert Garrick, who was Deputy Counselor to the 
President. Working with Admiral Garrick and another gentleman 
by the name of Fred Fielding, Counsel to the President, the 
program made its way to Ed Meese, Chief of Staff at that time 
and was, ultimately, forwarded on to NASA.
    The gentleman at NASA who received the program is a 
gentleman by the name of James Fanseen, who was Assistant 
Administrator of NASA. Mr. Fanseen greatly supported this 
program and worked over years to help me get it off the ground. 
However, it had no success. It was rejected primarily because 
there was no way for NASA to receive the money since monies 
raised for a government agency, such as NASA, would have to go 
into the treasury and there was no mechanism to get them back 
out to the agency, which is really an important aspect of what 
this committee should address, if you're going to entertain 
private sector initiatives and commercialism of space.
    Additionally, there was a significant belief that the 
shuttle belonged to the American people and no organization of 
any kind, other than the American people, had any right to make 
it commercial. Officials in NASA, Congress and the senate 
encouraged me to continue to stay with this program. In fact, 
20 years later, I was approached to participate in NASA's Dream 
Time Venture, which I rejected, and despite all good 
intentions, did not materialize the way most would have liked 
it to go.
    In 1984, I presented a revised and updated approach to the 
1981 presentation. This presentation was made now with much 
more support from the administrator's office of NASA and the 
White House and it was presented to Mr. Fanseen; Jesse Moore, 
who was at that time Acting Assistant Administrator for space 
flight, NASA's general counsel and others. Among the aspect of 
this plan was an outline of how and when sponsorship plaques 
could be broadcasted. It included an example of noncommercial 
messages. Incentives were more detailed. Included VIP tours at 
major space centers and the most significant thing a replica 
plaque would fly with the sponsor plaque. So, one plaque could 
actually hang in a corporate office and, more importantly, the 
other plaque could hang in the Smithsonian Institute as a 
tribute to the space mission that paved the way for the future.
    However, despite all the encouragement, the program was, 
again, rejected for similar reasons in 1984 and then in 1989.
    I was told, additionally, that retaining the services of 
any vendor in the private sector would need to be subject to 
open competition and the Armed Services Procurement Act, 
ignoring any of the intellectual property rights, common-law 
copyrights or registrations which I might have accrued over the 
years of submitting these various concepts.
    Since the first shuttle flight, there have been 113 
missions. If this program had been implemented the space 
program could have earned more than $5 billion. That would have 
represented more than enough money to cover the entire budget 
in 1982 when I started or nearly 35 percent of last year's NASA 
budget, a staggering number.
    Additionally, the message of support, which will now never 
be seen, would remind the public about the importance of the 
space program in our daily lives without taking away the 
public's ownership in any manner whatsoever. In addition, I 
might say that NASA has gone out of their way with the NASA 
Public Affairs Television Network, the Dream Time Venture and a 
variety of other programs, most of which are available on the 
website, to spend hundreds of millions of dollars to get the 
message out that these advertising sponsors could have gotten 
out on a win-win-plus-revenue basis versus an expense.
    Last month President Bush announced a plan for this Nation 
to have manned missions to go back to the Moon and Mars. NASA 
estimates these programs will require expenditures of at least 
$170 billion. Hundreds of millions of dollars more will be 
needed to convert NASA's ground-based and space-based video 
facilities to HDTV standards over the next decade and with an 
underfunded NASA, stuck where it was in 1979 at eight-tenths of 
a percent of the Federal budget, the challenge seems 
insurmountable.
    My written submission includes copies of my 1981 and 1984 
presentations along with a revised presentation in 2004. 
Working with NASA, this program can become a reality starting 
now. It can generate dollars, enough dollars for ground and 
space-based facility upgrades with billions more in the works 
from sponsors within the next 3 years.
    In fact, in 1999 NASA, despite all the contradiction of my 
program, posted its own commercial space transportation study, 
a portion of which is included in my written submission. In 
Section 3.10.3.7 of NASA's own document it says, and I quote: 
``the use of launch vehicles as an advertising medium is a 
newly evolving market with the potential to obtain substantial 
revenues.'' However, nothing's been done. Since that period of 
time, billions could have been generated to the space program 
with the support of plaque messages that I spoke about earlier.
    It discusses opportunities for advertising in space, 
including orbiting billboards. It discusses an agreement with 
Columbia Pictures on an ad for ``The Last Action Hero,'' which 
was placed on the side of the Conestoga comet launch vehicle 
for $500,000 while the Soviets are generating millions of 
dollars from American companies such as Pepsi. Why don't those 
monies stay in our space program?
    This Subcommittee needs to create a mechanism to get money 
from the private sector into NASA. I've never given up on my 
dream to get NASA space advertising off the ground. I've shared 
my proposals, ideas and presentations with congressional 
leaders, representatives of NASA, JPL and a lot of astronauts, 
including Eugene Cernan, Harrison Schmidt, Buzz Aldrin, T.K. 
Mattingly, James Lovell, Bill Shepherd, former NASA 
administrator Dan Goldin, all of which over the years, I'm 
proud to say, have become friends.
    Last October, I presented my program to Representative Dana 
Rohrabacher from the Congressional Space and Aeronautics 
Committee Chairman, who told me he wholeheartedly supports 
efforts and encourages that the Congress will work with the 
senate in order to figure out ways to get these money through 
the treasury into NASA and initiate programs like this.
    I just hate to see NASA waste another 23 years and lose 
another $5 billion or more. We need to work as a team to get 
private sector sponsorships of the space program off the ground 
so we can deliver on Ronald Reagan's challenge and fulfill 
President Bush's mission to take our Nation back into space.
    And I might add just on the testimony of NASA this morning, 
which was very impressive in their comment that over 6 billion 
people have gone to the website. Now, if NASA, to illustrate 
how simple this is, would offer a photograph screen saver for 
$1 to those people and 10 percent of those people took 
advantage of that $1, the 5 percent that the Congress and the 
Senate negotiated for to get into next year's NASA budget would 
have been handed to NASA at no incremental cost in the last 90 
days and at no cost to taxpayers.
    There is a tremendous opportunity here and it's almost 
irresponsible for this Committee and Congress to ignore at this 
time with the deficit situation, the way we're trying to go 
toward balanced budget and the interest of getting back to 
Mars.
    Thank you for allowing me to speak here today.
    [The prepared statement of Mr. Lorsch follows:]

   Prepared Statement of Robert H. Lorsch, Chief Executive Officer, 
                          The RHL Group, Inc.
    Good morning members of The Subcommittee. My name is Robert H. 
Lorsch and I am CEO of The RHL Group, Inc. I am pleased to be here 
today to discuss this very important opportunity. For more than 30 
years I have specialized in marketing communications and my clients 
have included all three major television networks, Johnson & Johnson, 
Beatrice Foods, Sears, McDonald's, Northrop Grumman, Procter & Gamble 
and Microsoft amongst others.
    I have also been involved as a philanthropist promoting science 
education as a Director and Trustee of the California Science Center, 
whose gateway is the Robert H. Lorsch Family Pavilion. I have received 
the ``C'' Flag Private Sector Initiative award from the White House for 
my work in Earthquake Preparedness. As a businessman and philanthropist 
I have raised in excess of ten million dollars for a variety of 
charitable organizations, through direct contributions and numerous 
national advertiser cause-related marketing programs, similar to the 
concepts contained herein. My biography is included as a part of my 
written submission.
    In 1981, then President Ronald Reagan challenged government to work 
with the private sector to create programs designed to return a portion 
of the financial burden of government to business and industry.
    I contacted his press secretary, Jim Brady, with an idea for a NASA 
space advertising program of non-commercial sponsorship messages to be 
placed inside the space shuttle.
    The 1981 proposal suggested that for one million dollars, sponsors 
or advertisers could place a message in a shuttle flight. The message 
carried on a ``Plaque'' would be a non commercial supportive message of 
NASA missions to be placed on an inside wall of the space shuttle, 
which would be seen during broadcasts from the mission. As incentives, 
each individual, company, foundation, or other organization would 
receive benefits such as:

        --A launch and landing party and dinner with NASA officials and 
        available members of Congress;

        --Pictures of donors with astronauts and other dignitaries;

        --Official letters of appreciation;

        --The right to promote the companies sponsorship of NASA much 
        like a major Olympics sponsor;

    Secretary Brady referred my program to Admiral Robert Garrick then 
Deputy Counselor to the President at the White House. Working with 
Admiral Garrick's office in conjunction with then Counsel to the 
President Fred Fielding, I refined my plan when Chief of Staff Ed Meese 
directed it be reviewed by NASA.
    At that point the program made its way to the desk of James 
Fanseen, then Assistant Administrator for NASA.
    Mr. Fanseen greatly supported this program and worked over years to 
help me ``get it off the ground'' with no success. It was rejected 
primarily because there was no way for NASA to see any money, since 
monies raised for a government agency would first go to the United 
States Treasury and could not be directly allocated to the space 
agency. Additionally there was a belief that the shuttle belonged to 
the American people and no one had a right to commercialize it.
    Numerous officials in NASA, Congress and the Senate encouraged me 
then and now to stay with a space advertising program. I was approached 
20 years later to participate in NASA's Dreamtime venture, which I 
rejected and despite all good intentions did not meet its planned 
objectives for tapping the commercial potential of the space program.
    In 1984, I presented a revised and updated approach to the 1981 
presentation. This presentation made with the support of the 
administrator's office and the White House was formally presented to 
Mr. Fanseen, Jesse Moore, Acting Assistant Administrator for Space 
Flight, NASA's General Counsel and others.
    Among the new aspects of this plan was an outline of how and when 
sponsorship plaques could be broadcast. It included an example of a 
non-commercial message. Incentives were more detailed. VIP tours at the 
major space centers were added. The Smithsonian Air and Space Museum 
was suggested as a place where sponsorship plaques might hang 
permanently.
    However despite all the encouragement, the program was again 
rejected for similar reasons in 1984 and again after going back again 
in 1989. Additionally I was told retaining the services of my agency 
would need to be subject to open competition & the Armed Services 
Procurement Act ignoring any intellectual property rights (common law 
or otherwise) which I had accrued over the years through my numerous 
writings & presentations.
    Since the first Shuttle flight there have been 113 missions. If my 
program had been implemented, the space program could have earned more 
than five billion dollars, not counting Space Station opportunities. 
This would have been enough money to have funded NASA's entire budget 
in 1982 or nearly thirty five percent of it in 2003.
    Additionally the messages of support (which now will never be seen) 
would have reminded the public about the importance of the space 
program in our daily lives without taking away the public's ownership 
in any manner what so ever.
    Last month President Bush announced a plan for this Nation to have 
manned missions to go back to the Moon and Mars starting in 2014. NASA 
estimates these programs will require expenditures of at least $170 
billion. Hundreds of millions of dollars more will be needed to convert 
all of NASA's ground-based and space-based video facilities to the HDTV 
standard over the next decade. With an under funded NASA stuck where it 
was in 1979 at eight tenths of one percent of the Federal budget this 
financial challenge seems insurmountable. However, there is a way 
upwards.
    My written submission includes copies of my 1981 and 1984 
presentations, along with a revised 2004 presentation. Working with 
NASA, this program can become a reality starting now. And by 2008 that 
reality can generate at least 100 million dollars for the ground and 
space based facility upgrades with billions more in the works from 
sponsors in support of NASA efforts to send America back to the Moon 
and then to Mars.
    In fact in 1999 NASA posted its own ``Commercial Space 
Transportation Study'' on the web. In section 3.10.3.7 of NASA's own 
document it says ``The use of launch vehicles as an advertising medium 
is a newly evolving market with the potential to obtain substantial 
revenues''. It discusses the opportunities for advertising in space 
including orbiting billboards. Excerpts of which are also included in 
my written submission. It is clear that times have changed and NASA now 
recognizes the value of the intellectual properties I presented through 
their own demonstrated efforts to find ways to initiate a space 
advertising program.
    NASA points to an agreement with Columbia Pictures to place an ad 
for ``The Last Action Hero'' on the side of the Conestoga Comet launch 
vehicle for five hundred thousand dollars while the Soviet space 
program has already been supported by advertising from American 
companies such as Pepsi. Why didn't those monies stay here?
    I ask this Subcommittee to create a mechanism to get money from the 
private sector into NASA to enable the next generation of spacecraft to 
get off the ground.
    I have never given up on my dream to get Space Advertising off the 
ground. I have continued to share my proposals, ideas and presentations 
with congressional leaders, representatives of NASA, JPL, and 
astronauts including Eugene Cernan, Harrison Schmitt, Buzz Aldrin, T.K. 
Mattingly, James Lovell, Bill Shepherd, and former NASA Administrator 
Dan Goldin.
    Last October, I presented my program to Representative Dana 
Rohrabacher, Congressional Space & Aeronautics Chairman who recently 
told me, ``I wholeheartedly support your efforts to help the U.S. space 
program and am pleased that the Senate committee is taking such a 
proactive interest in your ideas.''
    Let's not waste another 23 years and lose another five billion 
dollars or more. Let's work as a team to get private sector 
sponsorships of the space program off the ground so we can deliver on 
Ronald Reagan's Challenge and fulfill President Bush's mission to take 
our Nation back into space.
    I look forward to responding to any comments or questions you may 
have.
                                 ______
                                 
                     Biography of Robert H. Lorsch
    Los Angeles businessman, entrepreneur and philanthropist Robert H. 
``Bob'' Lorsch's professional career spans over 35 years, mainly in 
advertising and sales promotion.
    For more than 20 years, Bob Lorsch served as President of Lorsch 
Creative Network (LCN), a full-service advertising and sales promotion 
agency specializing in merchandising, point-of-sale, games, contests, 
sweepstakes and interactive marketing for corporate clients. LCN 
blended advertising, sales promotion, marketing campaigns and 
interactive telepromotions for ``blue chip'' national and international 
clients, including the ABC, CBS and NBC television networks, Marvel 
Entertainment, Caesars World, Inc., The Seven-Up Company, Campbell's 
Soup, Procter & Gamble, Beatrice Foods, Johnson & Johnson, Taco Bell, 
American Isuzu Motors, Northrop Grumman, McDonald's Corporation and 
MCA/Universal, among many others. Lorsch also partnered with Pacific 
Bell Information Services to build a voice mailbox system that is now 
part of the popular WinFax product offerings. In late 1994, Lorsch co-
founded a prepaid long distance calling card company SmarTalk 
TeleServices, Inc., which started in late 1994 with five thousand 
dollars in capital and five people in a room above his garage. After 
going public in 1996, the company became one of the largest providers 
of prepaid telecommunications products and services in the world. 
Lorsch served as CEO until February 1998, following which the company 
was ultimately sold to AT&T in 1999.
    Today, Lorsch continues to pursue entrepreneurial business 
opportunities in the private sector through his investment and 
development firm, The RHL Group, Inc. One of his companies, 
www.yourdiscountdepot.com is an E-commerce enterprise that operates an 
online store and auction site as well as markets offers from a network 
of strategic partners.
    Another of Lorsch's projects is Natural Products for Pets, Inc., 
which launched in October 2001 and is the exclusive manufacturer and 
distributor of Dancing Paws, a popular pet nutrient system that 
promotes optimum health and longevity. Offered at major retail 
specialty stores and the Internet at www.dancingpaws.com, the Dancing 
Paws line is produced at human dietary supplement plants requiring FDA 
approval. In fall 2002, the company introduced its newest product, 
``Breath-A-Licious,'' a dental treat for dogs that has met with huge 
success.
    Additionally The RHL Group is proud to have been an early stage 
investor in the Series A, B and C rounds of CancerVax www.cancervax.com 
a Biotechnology Company that completed its public offering in October 
2003 (NASDAQ CNVX).
    Whatever his role, Lorsch faces each endeavor with unparalleled 
enthusiastic energy. One of his personal mantras is: ``To be average 
scares the hell out of me.'' These words are inscribed on a sign that 
has hung on his office door for more than 20 years. In the book, 
Barbarians Led by Bill Gates, Lorsch is described as ``a marketing 
mastermind'' and ``a magician who believed anything was possible and 
simply wouldn't take no for an answer.''
    One of Lorsch's marketing innovations involved his efforts in 1980 
to sell advertising on the Space Shuttle to benefit NASA research 
programs. This caught the attention of White House and NASA officials, 
who encouraged him to get involved with the Museum of Science and 
Industry in Los Angeles as well as other science museums across the 
country. In February 1998, Vice President Albert Gore recognized 
Lorsch's support of science and technology in his dedication of the new 
California Science Center, which features the Robert H. Lorsch Family 
Pavilion as the gateway to the Center. Lorsch also serves on the 
California Science Center Foundation's Board of Trustees.
    Lorsch has received numerous awards and proclamations for his 
public spirit, including the prestigious ``C'' Flag Private Sector 
Initiative award from the White House during the Reagan administration 
for his work in raising millions for financing state and local 
earthquake preparedness education. His efforts for this cause, which 
include serving on numerous earthquake preparedness committees, have 
also earned him awards from the City and County of Los Angeles, the 
State of California and the Federal Emergency Management Agency (FEMA).
    On June 5, 2002, Lorsch was again recognized by the City of Los 
Angeles when the Los Angeles City Council adopted a resolution 
commending the entrepreneur/philanthropist for his outstanding 
charitable work and business acumen, and further honored him by 
creating ``Bob Lorsch Day.''
    Further, on June 12, 2002, Lorsch was appointed by the California 
Gambling Control Commission to serve on its 10-member Gaming Policy 
Advisory Committee. And on September 11, 2002, he received a state 
appointment from Governor Gray Davis to serve on the nine-member 
California Science Center Board of Directors for a four-year term.
    In contributing a tremendous amount of time and energy toward 
giving back to the community--a lesson he learned in his youth--Lorsch 
also encourages clients, business associates and friends to give a 
portion of their profits back to the community. His efforts have led to 
raising millions of dollars for a variety of charitable organizations, 
along which are numerous cause-related marketing programs he created 
for national advertisers that have helped raise millions for 
organizations such as the Special Olympics and others.
    Among his many current charitable endeavors, Lorsch is a major 
supporter of the John Wayne Cancer Institute, D.A.R.E. America, the 
Elizabeth Glaser Pediatric AIDS Foundation, the Thalians Mental Health 
Center at Cedars-Sinai Medical Center, The Los Angeles Police 
Historical Society, the Starlight Children's Foundation, the Sheriff's 
Youth Foundation, the VPI Skeeter Foundation, and the Muscular 
Dystrophy Association, for which he serves as both a National Vice 
President and President of the Los Angeles Chapter.
    Over the last 18 months, Lorsch has been involved in helping the 
Wildlife WayStation. www.wildlifewaystation.org, The WayStation is an 
internationally acclaimed non-profit wildlife refuge in Southern 
California's Angeles National Forest and the largest rescue facility of 
its kind in North America. Currently home to 600 animal residents, The 
WayStation has saved over 76,000 animals over the past 28 years from 
certain death, with funding for its operations provided from the 
private sector without taxpayer support. In his role as volunteer and 
``Best Friend,'' Lorsch has committed his time and resources helping to 
bring The WayStation into compliance by resolving issues with County, 
State and Federal regulators. This year he led a series of legal and 
political actions--including filing a successful court motion on behalf 
of the chimp residents--while at the same time building The 
WayStation's base of financial supporters. Lorsch has served the 
wildlife sanctuary as its ``Best Friend'' during the most difficult 
period in its history, and in November 2003, was named Chairman of its 
Board of Directors.
    Over the past five consecutive years, Lorsch has received six 
humanitarian awards from the following charitable organizations: the 
anti-drug, anti-violence organization D.A.R.E. America honored him in 
1998 with its coveted Future of America Award at a dinner where he was 
named D.A.R.E.'s ``Man of the Year.'' Lorsch was instrumental in 
raising over $2 million for this organization at the dinner, which 
represents the most successful fund raising event held by D.A.R.E. and 
is among the most successful money-raising events honoring an 
individual in the Los Angeles area. The Muscular Dystrophy Association 
honored Lorsch in 1999 with its esteemed Humanitarian of the Year 
award; the Southern California Chapter of the Asthma & Allergy 
Foundation of America named him Humanitarian of the Year 2000; A Family 
Celebration presented him with the Humanitarian of the Year award at 
its 2001 gala, where he was joined onstage by fellow honorees President 
Bill Clinton, President Gerald and Mrs. Betty Ford, and Sylvester 
Stallone; and Starlight Children's Foundation honored him in April 2002 
with the Golden Wish Award at its 19th annual gala hosted by Jamie Lee 
Curtis. Most recently, in October 2003, Lorsch was honored by the 
Wildlife WayStation with its ``Paws of Fame'' Humanitarian Award in 
recognition of his philanthropy and unselfish dedication to the world-
renowned animal sanctuary. The presentation was made at the Ninth 
Annual Safari Brunch held at the Playboy Mansion and was the 
organization's most successful benefit in history.
    Lorsch has been an arbitrator for the American Arbitration 
Association and a member of the James Brady Presidential Foundation 
and, also, the Fulbright Commission. He has been highlighted in 
national and international newspapers, magazines and broadcast media, 
and has been a featured speaker on telecommunications at forums 
nationwide, including at MIT. Lorsch is 53 years old and is a resident 
of Los Angeles for more than 33 years. He has one son, Jordan, who is 
19 years old.
                                 ______
                                 
                Some Sites That You May Be Interested In

www.yourdiscountdepot.com

www.dancingpaws.com

www.lorschland.com

www.wildlifewaystation.org
          February 17, 2004 Presentation to Senator Brownback
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Senator Brownback. Thanks for that last example, too. I had 
not thought through that but if you're going to get 6 billion 
hits on a website----
    Mr. Lorsch. 600 million people at a dollar, two screen 
savers. I mean, that's $1.2 billion. That's nearly twice the 
amount of money that NASA just wrestled to get its budget 
increased in the next 12 months.
    Senator Brownback. Thank you very much.
    Mr. Lorsch. You're welcome, sir.
    Senator Brownback. Look to act on that.
    Mr. W.F. Mitchell, President of Altair Development 
Corporation. Go ahead.

STATEMENT OF WILLIAM F. MITCHELL, PRESIDENT, ALTAIR DEVELOPMENT 
                CORPORATION AND CHIEF EXECUTIVE 
               OFFICER, NEO SAFETY INTERNATIONAL

    Mr. Mitchell. Thank you, Mr. Chairman.
    At the end of this program, after everyone's through 
testifying, our company will have a movie that you're welcome 
to watch; it's a public outreach movie. There are some 
important statements in the movie from Peter Diamandis, who's 
one of our consultants. He's, as you know, founded the X Prize 
and the Zero-G Corporation, which I'm a stockholder in.
    I was inspired to study space when I was flying for Auburn 
University as a college student back in the 1970s, when we were 
landing on the Moon, which I've been studying it ever since, 
and once proposed a private lunar development for NASA to 
consider.
    And much has been said here today about the future of our 
children and in the movie that you will see and what I'm going 
to talk about today, the future of our children is paramount in 
my presentation. And so that I won't forget anything, Mr. 
Chairman, I'll read it if you don't mind.
    I applaud the new space policy. The new direction and 
vision for the Nation is long overdue. Having a clear picture 
of where to go and what to accomplish is the first step in any 
challenging new endeavor. I believe the President's bold vision 
is a worthy and honorable undertaking that our great nation has 
the talent and the resources to make a reality. However, the 
critics abound. Even some staunch GOP supporters are having 
difficulty supporting the policy given the current large 
military budgets needed to fight a worldwide war on terror and 
the precarious status of many of our social programs due to 
large budget deficits. The bottom line, as critics say, is that 
we simply cannot afford this expensive vision solely to satisfy 
our need to explore and fulfill our scientific curiosity.
    But I believe that the critics can be quieted and a broad-
based support gained by acknowledging a far more serious reason 
for our Nation to be in space. The Nation must develop space to 
mitigate the threats of impacts by asteroids and comets. Only 
now are we beginning to become fully aware of the true life-
and-death danger posed by these impact threats.
    There is currently a large number of concerned scientists 
around the world, international experts, that are studying the 
danger of these impacts from near-earth objects. The attached 
space defense manifesto is a result of a logical analysis of 
that body of work. Most experts agree that it is not a question 
of if but rather when the impact of an asteroid or comet will 
cause a serious global disaster. The worse case scenario even 
predicts the destruction of all life on earth.
    The when is statistically just as likely to be now as it is 
a thousand years from now. Therefore, we have an urgent and 
compelling reason to act to protect ourselves, our children, 
their children from this danger of neo impact.
    Neo Safety International is a privately funded corporation 
that was formed to facilitate and expedite the rapid 
development of a space-based defensive system to protect the 
planet from near-earth impacts. The business plan of the 
corporation is in the early feasibility stage. However, some of 
the preliminary aspects of the plan are: perform fast-track 
reconnaissance missions to several asteroids to learn their 
exact physical, chemical and mineral makeup; capture one or 
more relatively small asteroids and convert the raw elements 
into rocket fuel, structural materials and shielding devices 
needed to build a larger material processing space craft; use 
the asteroid to derive interceptor and material processing 
spacecraft to intercept progressing larger asteroids and 
convert them into incrementally larger interceptors and space 
bases; use this building block method to build a reasonable 
number of space bases and equip them with a fleet of neo 
interceptors; strategically locate these bases at positions 
within the inner solar system to reasonably assure ourselves 
that we are capable of intercepting any and all threats from 
comets and asteroids.
    The first material processing base should be built at the 
Moon's L1 Lagrange location and it should also facilitate the 
development of a lunar base. The base should also be used to 
stage the President's proposed Mars mission. The development of 
this space defense system will be very difficult. Nevertheless, 
developing this system is doable and absolutely necessary.
    Some of the key ingredients needed to successfully create 
the new infrastructure are to use Apollo space shuttle era, 
off-the-shelf technology for the early missions and develop new 
technologies as they are needed; acquire a large percentage of 
the total mass needed to fuel and build these bases by mining 
the asteroids themselves. Only a relatively small mass will be 
launched from earth, i.e., food, computers, space suits, et 
cetera; finance the early missions by selling the science 
discovered on the asteroids to NASA and other interested 
parties.
    Command and control of all the interceptors will be by an 
international military coalition. Individual interceptors will 
be sold and/or leased to U.S. military and the militaries of 
other nations working to protect the planet. The bases will be 
a traditional real estate-type development with sales and 
leases to various militaries, NASA, other space agencies and 
industrial companies, commercial entities, universities, 
research institutions, medical facilities and even individuals.
    Many of the President's goals for NASA and the exploration 
of space can be enhanced and enabled by developing resources 
from asteroids. Byproducts of the defense system will be 
availability of almost limitless quantities of radiation 
shielding material, large supplies of low cost water and 
propellant available in near-earth orbits, a vast array of 
metals, glasses and other building materials will be for sale. 
Other yet unknown finds will help service the new space 
industry.
    The project will be financed using techniques common to the 
real estate and defense industry. Ownership of private 
property, minerals and natural resources will be an essential 
ingredient for success. Neo Safety International will assume 
the development and financial risk. Our corporation will sell 
and lease facilities to the U.S. military, NASA and as anchor 
tenants. An international military and space agency coalition 
will be co-anchors. Other target customers are industrial 
enterprises and commercial entities. A few of the ways that 
Congress can help in starting this project are enact enabling 
legislation where needed, provide tax incentives to owners, 
investors and lenders, direct NASA and the DOD to prioritize 
and cooperate to create this defensive system, help create a 
mutually assured protection, MAP, philosophy with other 
nations, and ensure that private property rights and 
intellectual property right laws are extended into the solar 
system.
    Exploring space for exploration's sake is no longer our 
primary motivation. We now have a moral imperative. We must 
develop space to ensure our survival and the survival of all 
those who will follow. I also believe that the act of 
developing this defensive system will spark a new space 
industrial revolution that will pay for itself in the creation 
of new wealth in sizes unimaginable in today's terms.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Mitchell follows:]

     Prepared Statement of William F. Mitchell, President, Altair 
    Development Corporation and Chief Executive Officer, NEO Safety 
                             International
    Mr. Chairman and members of the Committee:

    Thank you for this invitation to share my views on the President's 
new space policy and to introduce NEO Safety International's efforts to 
help achieve the President's space goals.
    I applaud the new space policy. This new direction and vision for 
the Nation is long overdue. Having a clear picture of where to go and 
what to accomplish is the first step in any challenging new endeavor. I 
believe the President's bold vision is a worthy and honorable 
undertaking and that our great nation has the talent and the resources 
to make it a reality.
    However, critics of the space policy abound. Even some staunch GOP 
supporters are having difficulty supporting the policy given the 
current large military budgets needed to fight a world wide war on 
terror and the precarious status of many of the nations social programs 
caused by large budget deficits. The bottom line is critics say the 
Nation simply cannot afford this expensive vision solely to satisfy our 
need to explore and fulfill our scientific curiosity.
    I believe the critics can be quieted and broad based support gained 
by acknowledging a far more serious reason for our Nation to be in 
space.
    The nation must develop space to mitigate the threat of impacts by 
asteroids and comets.
    Only now are we becoming fully aware of the true life and death 
danger posed by these impact threats. There is currently a large number 
of concerned scientist and international experts studying the danger of 
impacts from Near Earth Objects (NEO's). The attached Space Defense 
Manifesto is the result of a logical analysis of that body of work.
    Most experts agree that it is not a question of ``If'', but rather 
``When'', the impact of an asteroid or comet will cause a serious 
global disaster. The worst case scenario even predicts destruction of 
all life on earth!
    The ``When'' is statistically just as likely to be NOW as it is a 
thousand years from now. Therefore, we have an urgent and compelling 
reason to act to protect ourselves, our children and their children 
from this danger of NEO impacts.
    NEO SAFETY INTERNATIONAL is a privately funded corporation that was 
formed to facilitate and expedite the rapid development of a space 
based defensive system to protect the planet from NEO impacts. The 
business plan of the corporation is in the early feasibility phase. 
However, some of the preliminary aspects of the plan are;

  <bullet> Perform fast track reconnaissance missions to several 
        asteroids to learn their exact physical, chemical and mineral 
        makeup.

  <bullet> Capture one or more relatively small asteroids and convert 
        the raw elements into rocket fuel, structural materials and 
        shielding devices needed to build a larger material processing 
        spacecraft.

  <bullet> Use the asteroid derived interceptor and material processing 
        spacecraft to intercept progressively larger asteroids and 
        convert them into incrementally larger interceptors and space 
        bases.

  <bullet> Use this building block method to build a reasonable number 
        of space bases equipped with a fleet of NEO interceptors.

  <bullet> Strategically locate these bases at positions within the 
        inner solar system to reasonably assure ourselves that we are 
        capable of intercepting any and all threats from comets and 
        asteroids.

  <bullet> The first material processing base should be built at the 
        Moon's L1 Lagrange location and it should also facilitate the 
        development of a lunar base. This base should also be used to 
        stage the President's proposed Mar's missions.

    The development of the space defense system will be very difficult 
and challenging. Nevertheless, developing this system is doable and is 
absolutely necessary. Some of the key ingredients needed to 
successfully create the new infrastructure are;

  <bullet> Use Apollo/Space Shuttle era ``off the shelf'' technology 
        for all initial missions. New technologies will be developed as 
        needed.

  <bullet> Acquire a large percentage of the total mass needed for fuel 
        and building materials from the mining and processing of the 
        asteroids themselves. Only a relatively small mass will come 
        from the Earth, i.e., food, computers, spacesuits etc.

  <bullet> Finance the early missions by selling the science discovered 
        on the asteroids to NASA and other interested parties.

  <bullet> Command and control of all the interceptors will be by an 
        international military coalition.

  <bullet> Individual interceptors will be sold and or leased to the 
        U.S. Military and the militaries of other nations working to 
        protect the planet.

  <bullet> The bases will be a traditional real estate type development 
        with sales and leases to the various militaries, NASA, other 
        space agencies, industrial companies, commercial entities, 
        universities, research institutions, medical facilities and 
        individuals.

    Many of the President's goals for NASA and the exploration of space 
can be enhanced by developing resources from asteroids. Byproducts of 
the defense system will be:

  <bullet> Availability of affordable and limitless quantities of 
        radiation shielding materials

  <bullet> Large supplies of low cost water and propellants available 
        in near earth orbits

  <bullet> A vast array of metals, glasses and other building materials 
        will be ``for sale''

  <bullet> Other yet unknown ``finds'' will help service the new space 
        industry

    The project will be financed as a traditional real estate 
development. Ownership of private property, minerals and natural 
resources will be an essential ingredient for success. NEO Safety 
International will assume the development and financial risk. Our 
corporation will sell and lease facilities to the U.S. Military and 
NASA as anchor customers and tenants. An International Military and 
Space Agencies Coalition will be co-anchors. Other target customers are 
industrial enterprises, commercial entities, universities, research 
institutions, medical facilities, financial/service companies and 
individuals.
    A few ways that Congress can help in starting this project are:

  <bullet> Enact enabling legislation where needed

  <bullet> Provide Tax incentives to owners, investors and lenders

  <bullet> Direct NASA and the DOD to prioritize and cooperate to 
        create this defensive system

  <bullet> Help create a Mutually Assured Protection (MAP) philosophy 
        with other nations

  <bullet> Insure that private property rights and intellectual 
        property rights laws are extended into the solar system

    Our motivation to master space needs to no longer be based on 
exploration for exploration's sake. We now have a moral imperative. We 
must develop space to insure our survival and the lives of all who will 
follow. I also believe that the act of developing this defensive system 
will also spark a new space industrial revolution that will pay for 
itself in the creation of new wealth in sizes unimaginable it today's 
terms.
    Thank you Mr. Chairman and member of the Committee.
                               Attachment
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Senator Brownback. Thank you, Mr. Mitchell. I appreciate 
that. It was a very exact thought.
    Mr. Courtney Stadd, President of Capital Solutions. Thanks 
for joining us this morning.

          STATEMENT OF COURTNEY A. STADD, PRESIDENT, 
                       CAPITOL SOLUTIONS

    Mr. Stadd. Yes, sir. Good morning, Mr. Chairman. Thank you. 
And I also want to thank you for the leadership that you've 
brought in terms of supporting the President's vision for NASA, 
particularly the leadership you've shown supporting the role of 
the private sector. It means an awful lot to us in the industry 
and also I want to express appreciation for the fact that 
you're holding a field hearing. I think, personally, it's so 
important for leaders such as yourself, with very busy 
schedules. And I know it's disruptive and I know sometimes the 
transaction costs can be high. But actually leave Washington to 
come down to meet with people, such as the people here at 
Johnson Space Center, who are the people who actually make 
things happen, along with the contractors. And I must add--
although I'm going to concentrate mostly on the entrepreneurs, 
the new starts in my testimony--there's no shortage of 
innovators and big contractors as well that populate the 
neighborhood here who work hand in hand with the agency as 
well.
    And I'm looking over at General Warden. He and I worked in 
the White House many years ago and it's also a tribute to you, 
sir, that you've brought on my old colleague to this terrific 
staff that supports the Committee.
    Senator Brownback. Thank you. I've got to answer regarding 
that, because I'm glad to have General Warden on the staff and 
he had been around when we tried this once before and didn't 
get it done; he was brought on to get this done. So, we've got 
experience and I'm delighted to have the expertise of the 
General and Baker, too.
    Mr. Stadd. You've chosen well.
    In interest of time, I'll make six points, Mr. Chairman. 
First, the fledgling but very determined commercial sector is 
eager to provide innovative solutions for space station 
transportation for logistics and transportation support. 
Accordingly, I'm very pleased to see the $140 million that NASA 
has set aside for the space station crew and cargo services to 
purchase space station transportation services. And NASA should 
be strongly supported in its efforts to direct the bulk of 
these funds to U.S. commercial suppliers.
    The alternative to commercial competition is that NASA and 
its space station partners will devote critical resources to 
providing unmanned logistics support that could be done by the 
private sector and that would be a loss for everyone.
    The American entrepreneur firms are also eager to respond 
to the small payload demonstration program that is intending to 
use emerging launch suppliers to fly unflown NASA instruments 
to other small payloads. These are very, very important new 
initiatives.
    Another exciting initiative that was referred to me by 
former colleagues at NASA on the first panel is the Centennial 
Challenges Program. That is requesting, I believe, 20 million 
annual prizes. It is my understanding that in order for this 
program to be established, it will require this committee to 
provide the same type of authorization to NASA that the defense 
advanced research projects agency has as well and, in fact, is 
using for its own more modest prize efforts as we meet here 
today.
    So, I would ask the Committee and the staff to, please, 
focus specifically on how the agency executes this program 
because done right it could represent no less than a paradigm 
shift in how the agency deals with the private sector.
    Third point, it is a purely nonscientific observation, but 
I would say that the current cycle of entrepreneurs and like my 
colleague, Charlie Chafer, I've lived through several cycles 
over the past 30 years although very much in the startup stage 
that's been driven by, frankly, more sophisticated players and 
capital that have learned from the trials and tribulations of 
their predecessors. A case in point, quite frankly, is Charlie 
Chafer's Team Encounter engineering team that worked with some 
unsung heroes in bureaucratic trenches at NASA to make his 
effort and his company's effort come to fruition.
    Another case in point is an entrepreneur that I'm working 
closely with and that is Robert Bigelow, who's founder of 
Bigelow Aerospace, a 5-year-old Nevada-based space company, 
developing expandable or better known as inflatable space 
module technology that is based from the Trancept Project, 
which was started right down this street at the Johnson Space 
Center several years ago. We had to, frankly, terminate that 
program based on budget, not technical merit, a few years back.
    But the idea behind these modules is to build radically 
low-cost modules that could be placed in one with orbit and 
ultimately, perhaps, even be habitates in other planetary 
surfaces in years to come.
    Mr. Bigelow has never taken one dollar of Federal contract 
money. He's spent 30 years in the construction/real estate 
business and any of you who have worked in that business know 
it's a very, very competitive field; but he's a gentleman, 
also, who was inspired in his teen years to invest in space and 
now that he's in a position to invest a good part of his 
personal wealth, he's doing just that. And it's his hope that 
he'll actually have these commercial modules initially in place 
by the end of the decade.
    I do know that he would want me to put on the record the 
support that he's received from the Johnson Space Center, 
particularly the director General Howell, who personally went 
out to visit Bigelow Aerospace facilities. We have a Space Act 
agreement with the agency and there has been a sharing of 
technical expertise with the center that has just been going 
tremendously. In addition, I believe this reflects the 
presumption now at NASA headquarters to support more and more 
of these commercial type of efforts.
    Potential uses of these modules could range from 
biotechnology to Earth observation and space tourism. By the 
way, in pursuing this capability in low-Earth orbit, it is 
imperative that the United States Government/private sector 
develop vehicles capable of bringing people and cargo to lower 
orbit. I'll get back to that in a second.
    Elon Musk, quite familiar to this agency, is another 
gentleman who came from a different sector, in his case the 
Internet, who's bringing considerable wealth investing his 
Space X Corporation to develop a very low-cost vehicle; and it 
is a credit to the Department of Defense that they're willing 
to put a payload on the very first Falcon rocket scheduled to 
launch this spring. And it is precisely these types of rockets 
that, I think, NASA should be supportive in its efforts to put 
experimental payloads and help these new companies achieve 
credibility.
    These two entrepreneurs are just two examples of an 
increasingly diverse community of space entrepreneurship but I 
also want to express my excitement for other companies, such as 
Zero-G Corporation, and the space adventurers that are seeking 
to expose the marketplace to the experience of weightlessness. 
And, although, the growth of space tourism, Mr. Chairman, 
merely is now part of NASA's new mission, it will be of immense 
benefit, frankly, to the agency, to the government in the sense 
of strengthening and diversifying the aerospace industrial 
space by bringing the excitement of space travel to the wider 
public, including those young people you referred to in the 
hearing.
    And I'd like to comment to the Committee, if I may, that a 
review of HR3752 introduced by Congressman Dana Rohrabacher and 
recently passed on the House Science Committee that calls for a 
balanced regulatory framework for space tourism.
    Fourth point is that I wish I was in a position to tell the 
Committee how it and the agency could support and encourage 
each of these entrepreneurs, but each entrepreneurial project, 
in many ways, has its own unique needs; and, therefore, must be 
dealt with on a case-by-case basis. The critical issue is that 
NASA officials who are responsible for dealing with these 
entities must be given the freedom and the support to deal with 
new, sometimes risky companies in a flexible and creative 
fashion. And, again, I emphasize it is so important for the 
Committee, with your leadership, sir, the other members of the 
staff, to remain actively engaged in this process over the long 
term and provide the even moral support for officials who, when 
you're dealing with the risky world of entrepreneurship, 
occasionally we will experience problems and failures; but to 
provide the support that allows them to continue to go on.
    And, Mr. Chairman, I'd be remiss if I didn't mention the 
burdensome role of the export control laws. I know I'd probably 
fill the hearing room with studies and commission reports on 
how outdated many of the export control laws are. So, I would 
urge the Committee to review our space-related export control 
laws to identify those, in fact, that have become obsolete and 
sometimes hurt more than they help our security and business 
interest.
    In the wake of the President's announcement, I also believe 
that there may, in fact, be investors who might explore 
negotiating with the agency an exclusive marketing and 
brokering arrangement for the U.S. portion of the space station 
for a specific period of time. Again, a concept like this would 
be feasible only if there is genuine interest by the United 
States Government to such a proposal. If NASA and its prime 
contractor base move on to implement the exploration strategy 
beyond lower Earth orbit, perhaps now is a great, opportune 
time to explore innovative ideas in how the commercial sector 
might want to utilize the space station capabilities to its 
fullest extent.
    And the gentleman to my right, Mr. Lorsch, certainly has 
provided an example of the type of innovation that happens when 
you allow creative individuals like himself the license to 
pursue that type of opportunity; but whether or not this 
specific opportunity goes anywhere, my point is that today's 
challenges can become win-win opportunities if the government 
is seriously open to new approaches for the private sector.
    And, finally, sir, the President's direction to NASA has 
opened new opportunities by which government and industry can 
learn from one another, thus, maximize the chances of this new 
vision actually become reality, while giving birth to a robust, 
diverse and competitive U.S. and industrial base with major 
benefits for a nation in the future of humanity. And I must say 
that for those colleagues of yours who are skeptical, I would 
really urge them to go review the Commission that was chartered 
by Congress 2 years ago----
    Senator Brownback. Right.
    Mr. Stadd.--the future of this huge industrial sector, 
involving a former colleague, of course, Congressman----
    Senator Brownback. Bob Walker.
    Mr. Stadd.--Bob Walker, who was the Chairman, who laid out 
in very stark terms the state of our industrial base and 
aerospace today and it's not a very good situation. And I think 
one of the benefits of this new vision is that it can help 
vitalize that base because as that report makes clear, as we 
sit here today, Tokyo, Paris, Berlin, other capitals of the 
world, India, China, of course, are being very aggressive, very 
active in pushing their respective industrial base as well. 
And, frankly, a key concern for the commercial sector is 
whether the U.S. Government will ultimately follow through with 
a promise of a new policy.
    Thank you, again, for the opportunity to be here; and I 
look forward to answering whatever questions you may have, sir.
    [The prepared statement of Mr. Stadd follows:]

 Prepared Statement of Courtney A. Stadd, President, Capitol Solutions
    Mr. Chairman, and members of the Committee, I greatly appreciate 
the opportunity to participate in this hearing regarding the 
President's newly announced space policy and especially to discuss the 
prospects for private sector interest in space-related activities, 
including launch vehicle development and the International Space 
Station.
    I would like to begin my statement with an excerpt from an essay 
drafted by one of my space clients, Robert Bigelow, about whom I have 
more to say later in my testimony. If you go to his company's website 
at www.bigelowaerospace.com and click on ``space commerce'' you can 
access the full text. I think its sentiments are highly relevant to 
today's hearing.

        ``Two hundred years after the Lewis and Clark expedition 
        America continues to explore new frontiers. The manned space 
        program of the late twentieth century has opened the door to 
        almost limitless possibilities. Yet, despite the brave efforts 
        and sacrifice of astronauts, both American and Russian, the 
        U.S. and other nations have failed to capitalize on the hard 
        earned achievements of the national space programs. As was the 
        case 200 years ago, exploring the frontier was relatively 
        simple when compared with the difficulties of surviving and 
        profiting in a new and hostile environment.

        Unlike past space endeavors, settling and developing space 
        cannot be accomplished by government programs and personnel. 
        The U.S. Government could fund and order Lewis and Clark to 
        explore the West, but it could not pay or force pioneers to 
        settle the region. Governments do have an important role to 
        play in creating an environment conducive to space development, 
        but it is the pioneering entrepreneurs, not the soldiers or 
        bureaucrats, who can take and colonize a new frontier.''

    A little over a year ago, we mourned the tragic loss of the Space 
Shuttle Columbia and its heroic crew. The investigation that followed 
blamed not only technical and communication problems within NASA, but 
called out the absence of a compelling strategic vision for our 
Nation's civil space program. January 14th marked a major milestone in 
the Nation's civil space adventure when the President committed the 
Nation to a new bearing point and a renewed strategic direction in 
space. His vision now takes humankind beyond the confines of the low 
earth orbit we have occupied for decades, and draws our attention out 
into the distant universe, and the next logical destinations for 
humanity, including the Moon, Mars and beyond.
    The President's new space policy is a tribute to both the Columbia 
astronauts and future generations of American pioneers. I am the father 
of two teenagers and I can tell you that they and their friends' 
imaginations were really fired up by the combination of the President's 
speech and the extraordinary technical achievements of the Mars 
rovers--Spirit and Opportunity. The prospect that members of their 
generation might one day actually walk on another planetary surface 
even managed to cause some of them, however briefly, to think outside 
themselves and focus on a higher calling. No small miracle in itself!
    The President's plan responds to what many in the space community 
have been calling for in recent years: A bold new vision for NASA that 
lays out measured, pragmatic, evolutionary steps as the path for 
achievement of the goals he broadly outlined. Achievement of those 
goals will require a number of ambitious capabilities to be developed 
and demonstrated. We in private industry are greatly encouraged by 
NASA's recognition that it will be looking to the commercial sector for 
critical products and services in pursuing this exciting new road map. 
And make no mistake: there is ample room for significant contributions 
by entrepreneurs, private sector investors and commercial companies who 
see the benefits of supplying products, services and technology for 
space-related markets.
    Change, of course, often serves as a catalyst for innovation and 
new out-of-the-box ideas in the way we do things. By their very nature, 
entrepreneurs view ``change'' as a chance to translate challenge into 
profitable opportunities. This is why, frankly, so many American space 
entrepreneurs are embracing the period of potential change set in 
motion by the President's policy announcement.
    I have spent nearly thirty years of active involvement in the U.S. 
civil and commercial space communities--working in both the public and 
private sectors. With that said, I have also learned that it is nearly 
impossible to craft a national policy that satisfies all the various 
and sundry stakeholders. There will always be ``rice bowls'' who resist 
change when new priorities are set, such as those who may have a vested 
interest in preserving certain NASA programs that will be terminated or 
redirected as a result of the new vision. There will also be those that 
are frustrated by what they may view as an overly deliberate, 
evolutionary approach to realizing the President's goals. From this 
particular stakeholder's vantage point, however, I think the President 
and NASA have offered a compelling and exciting vision that is both 
pragmatic and executable, costing less than one percent of the annual 
Federal budget. At the same time, it offers a range of exciting 
opportunities for private industry whose resources can help leverage 
and expand the investment of taxpayer dollars in the space program.
    Before proceeding to discuss specific potential private sector 
interest in supporting the civil space program in areas such as launch 
vehicle development and the Space Station, allow me to underscore that 
the interdisciplinary nature of the new space exploration vision will 
require innovative technologies and breakthroughs in areas with huge 
potential impact on our economic competitiveness. These include major 
industrial sectors such as communications, robotics, materials, 
computing and automation, biotechnology and life sciences, power and 
propulsion, and networking.
    As the Congressionally-charted ``Commission on the Future of the 
U.S. Aerospace Industry'' (November 2002) made clear, our domestic 
aerospace infrastructure is severely undermined by a shortage of 
engineers and scientists, as well as foreign subsidized competition. 
The Commission's Executive Summary lays it out in stark terms: ``The 
industry is confronted with a graying workforce in science, engineering 
and manufacturing . . . New entrants to the industry have dropped 
precipitously to historical lows as the number of layoffs in the 
industry mount . . . We note with interest how other countries that 
aspire for a great global role are directing intense attention and 
resources to foster an indigenous aerospace industry. This is in 
contrast to the attitude present here in the United States. We stand 
dangerously close to squandering the advantage bequeathed to us by 
prior generations of aerospace leaders. We must reverse this trend and 
march steadily towards rebuilding the industry.'' Scientists and 
engineers initially attracted to work on space exploration programs 
will likely also go on to build the next generation Global Positioning 
System (GPS) satellites, missile defense systems, and laser 
communications satellites.
    I would respectfully suggest, Mr. Chairman, that your colleagues in 
Congress, should debate the merits of this new exploration vision in 
the broader context of providing this Nation a much overdue opportunity 
to revitalize our aerospace sector and return the U.S. to a leadership 
position in an area that has such important national economic and 
security implications.
    With the primary focus of the Space Shuttle on completing the 
assembly of the Space Station, the commercial sector is eager to 
provide innovative solutions for Space Station transportation, 
logistics and research support. There are several start-up companies, 
such as Constellation Services, Inc., and Kistler Aerospace that are 
offering to provide such services. This category of company includes 
those who are using private sector capital in seeking NASA as an 
``anchor tenant'' in pursuit of both government and commercial market 
business opportunities. Accordingly, I am very pleased to see that NASA 
has included $140 million for a new project, ISS Crew and Cargo 
Services, to purchase Space Station transportation services. Although I 
understand that foreign suppliers may provide some of these services, 
NASA should be supported in its efforts to direct the bulk of these 
funds to U.S. commercial suppliers to develop services to meet Space 
Station cargo transport needs.
    It is important for NASA to ensure that it offers truly competitive 
opportunities for industry, including start-up ventures; rather than 
utilizing the procurement process to prejudge the outcome for preferred 
suppliers of products and services. It is equally important for this 
Committee and its counterparts in the House to give NASA the resources 
and even moral support it will need to sometimes take the risk on new 
entrants and engage alternative commercial suppliers of space goods and 
services. In that regard, American entrepreneurial firms are eager to 
respond to the $10 million Small Payload Demonstration Program that is 
intended to use emerging launch suppliers to fly unflown NASA 
instruments or other small payloads; while also assisting these new 
firms to establish their credibility as providers of new commercial 
vehicles to meet future NASA needs. The alternative to commercial 
competition is that NASA and its International Space Station partners 
will continue to devote critical attention to providing unmanned 
logistics support that could be done by the private sector. That would 
be a loss for everyone.
    From a commercial standpoint, Mr. Chairman, an exciting new 
initiative in the NASA budget is the Centennial Challenges Program. 
This initiative was partly inspired by the success of the X-Prize 
Foundation, which is offering $10 million for the first team that 
launches a vehicle capable of carrying three people (or one person and 
ballast weight for two others) on a suborbital trajectory to 100-
kilometers or 62-miles and repeats the flight within two weeks. I 
understand that approximately 27 entrants representing seven countries 
are competing for the prize. It is fair to say that a $10 million prize 
has caused tens of millions of dollars to be invested by the private 
sector in pursuit of a wide variety of innovative launch vehicle 
concepts. For me, this is a dramatic illustration of how much dynamic 
energy and creativity is available in the commercial space sector.
    The Centennial Challenges Program invests $20 million in a series 
of annual prizes for revolutionary, breakthrough accomplishments from 
innovators not usually affiliated with the space program. It is my 
understanding that in order for the Centennial Challenge program to 
``take off'' it will require that this Committee authorize NASA to have 
similar prize-making authority that the Defense Advanced Research 
Projects Agency (DARPA) currently enjoys. Examples of potential 
candidate programs include nano-materials, very low cost robotic space 
missions and spacecraft power systems. It is well known that during the 
Apollo program breakthrough innovations often came from unexpected 
sources; therefore we need to create ``on ramps'' for creative 
individuals and small entrepreneurial teams. The key to this program's 
success, however, is to ensure minimal bureaucratic intrusion and 
efforts by ``rice bowls'' to vector the resources into programs that 
perpetuate the status quo versus truly advancing unorthodox inventions 
and ideas. Accordingly, I would urge this Committee to pay special 
attention to how the Agency executes this potentially exciting program. 
Done right it could represent no less than a paradigm shift in how the 
Agency works with the private sector.
    Over the past three decades, I have personally witnessed several 
cycles in which private capital--either in the form of institutional or 
high net worth individuals--have tried to develop various space launch 
and payload concepts for commercial and/or government markets. Every 
cycle has been characterized by its share of firms poorly managed (in 
that sense, the commercial space business is no different than other 
business sectors) or those who fall into the trap of mistaking 
technical possibility for market opportunity, or those who are 
essentially using taxpayer money to sell to the government under the 
guise of ``commercialization''. It is my purely non-scientific 
observation that the current cycle, although very much in the start-up 
stage, is being driven by more sophisticated players and capital who 
have learned from the trials and tribulations of their predecessors. 
There are multiple signs that capital formation is interested in space 
activities and even defense and space services, and that capital 
markets are becoming healthy again.
    Although I do not profess to be an expert on the capital markets, 
the Nation's pension funds, banks, and insurance companies appear to 
have re-energized their private equity and debt investments into 
venture and other forms of capital management in the past two years. 
Venture firms are showing signs of stability as well as a penchant for 
many of the nano-technology, life sciences, power sources, power 
technologies and other fundamental technical areas required for support 
of new space exploration missions.
    Last quarter, the venture capital industry invested $4.9 billion 
into new ventures, a level of investment activity that is the highest 
in the past eighteen months. This level of investing is expected to 
continue based on the increase in the availability of capital and deal 
flow for the foreseeable future, approximately $20 billion a year. Even 
more significant is the steady amounts of capital being raised by 
venture capital firms and other private sector institutions for 
investments into new high tech opportunities.
    In terms of high net worth individuals who are investing their 
personal wealth into commercial space-related projects, I am associated 
with Robert Bigelow, President and founder, Bigelow Aerospace, a five-
year-old Nevada-based space company that is developing expandable space 
module technology based on the Transhab project which was managed down 
the street at the Johnson Space Center until it was terminated for 
budget reasons a few years ago. Mr. Bigelow has never taken one dollar 
of government contract money. He brings to his space venture over three 
decades of true competitive commercial business experience in the 
construction, engineering and contracting fields.
    Since early 1999, Mr. Bigelow has been aggressively investing his 
own resources in building his company's expertise, capabilities, key 
partnerships and hardware. Bigelow Aerospace has been developing its 
capabilities within a Space Act Agreement with NASA that allows for a 
sharing of knowledge and expertise between the two parties involving no 
exchange of funds. When I informed Mr. Bigelow that I would be making a 
statement to this Committee, he requested that I underscore his praise 
for the Johnson Space Center Director, Jefferson Howell, under whose 
leadership Bigelow Aerospace has benefited greatly from the cooperation 
it has received from JSC. Such cooperation also appears to reflect the 
overall policy support for commercial space initiatives, such as 
Bigelow Aerospace, that is coming from NASA Headquarters.
    BA is pursuing its expandable space module technology based on the 
belief that such modules might drastically reduce the costs of living 
and working in the low earth orbit (LEO) environment. Potential uses 
include biotechnology research, earth observation, space tourism and 
other applications that we are pursuing on a proprietary basis. Such 
modules could, of course, eventually be utilized as habitats on other 
planetary surfaces. In pursuing this capability in low earth orbit, it 
is imperative that the U.S. develop space vehicles capable of bringing 
people and cargo to and from LEO. The current grounding of the Space 
Shuttle fleet has revealed the unfortunate reliance of the U.S. on the 
only alternate human carrier, the Russian Soyuz spacecraft, which makes 
it a single point of failure. Further, it is a fundamental rule of 
business to avoid negotiating in a situation where the other party has 
the upper hand in terms of being the sole supplier of a critical 
service. In this instance, the Russians hold some key ``Aces''. It is 
therefore in the self-interest of the U.S. to encourage private sector 
cargo and human rated launch initiatives. As noted earlier, NASA plays 
a critical role in encouraging the emergence of private sector 
alternatives.
    Elon Musk, who is familiar to this Committee, is another example of 
an entrepreneur who comes from a non-space industry sector (in his 
case, the Internet) who has founded SpaceX to develop a new family of 
low cost Falcon launch vehicles that are currently priced to cost less 
than half the price of similar launch vehicles due to competitive 
pricing and through the use of reusable first stage rocket engines. It 
is to the credit of the Department of Defense that it has placed a 
payload on board the company's first launch--currently scheduled for 
late spring of this year. SpaceX's Falcon rockets are precisely the 
type of vehicles that NASA should consider for some of its own 
experimental payloads. Based on my own informal discussions with Mr. 
Musk, he is similar to Mr. Bigelow in that they both have immersed 
themselves in the arcane science and engineering associated with their 
respective space businesses, are aggressively recruiting the best and 
brightest technical minds and are investing their own significant 
wealth in bringing to the aerospace marketplace business strategies 
that have served them well in their previous commercial businesses.
    These two space entrepreneurs are but two examples of the small but 
growing community of individuals and companies that are pursuing space-
related opportunities. I am also excited by the potential of companies, 
such as Zero-G Corporation and Space Adventures, that are seeking to 
expose the marketplace to the experience of weightlessness. (As someone 
who has experienced zero-g on NASA's KC-135 I can testify that the 
experience is sufficiently exhilarating that I would relish the chance 
to experience it on a sustained basis in space.) The successful growth 
of space tourism while clearly not a part of NASA's new mission, would 
be of enormous benefit to NASA in strengthening and diversifying the 
aerospace industrial base while bringing the excitement of space travel 
to the wider public. I would like to commend to the Committee that it 
review H.R. 3752, introduced by Congressman Dana Rohrabacher, and 
recently passed by the House Science Committee, that calls for a 
balanced regulatory framework for space tourism. These entrepreneurs 
are demonstrating that the private sector can potentially augment the 
government's efforts to open the space frontier for the full expression 
of the human enterprise.
    I wish that I were in a position to tell the Committee specifically 
how they and the Agency could support and encourage the work of these 
entrepreneurs. The reality is that each entrepreneurial project will 
have its own unique needs, and therefore they must be dealt with on a 
case-by-case basis. For example, Bigelow Aerospace could potentially 
benefit from NASA launching one of its sub-scale demonstrator modules, 
whereas I'm sure SpaceX would jump at an opportunity to receive a 
contract for a NASA launch. The critical issue is that the NASA 
officials who are responsible for dealing with these entities must be 
given the freedom and support to deal with new entrepreneurial 
companies in a flexible and creative fashion. Moreover, this Committee 
too can play a critical role in providing the resources and relevant 
Agency oversight to ensure that NASA is fulfilling its commitment to 
leverage private sector opportunities to the greatest extent possible. 
Again, I cannot emphasize how important it is for this Committee, its 
Members and staff to remain engaged in this process over the long term.
    Additionally, I would be remiss if I failed to mention the burden 
that current export control laws place on new entrepreneurs. No doubt, 
I could fill this hearing room with various academic studies and 
Commission reports that document the negative competitive effects of 
the current export licensing regime on the U.S. aerospace sector. The 
emerging space companies often depend upon the low-cost alternatives 
that foreign aerospace organizations can provide. One of the key 
recommendations from the ``Commission on the Future of the U.S. 
Aerospace Industry'' was that ``U.S. export control regulations must be 
substantially overhauled. . . .'' I feel strongly that the time has 
come for this Committee and Congress to conduct a comprehensive review 
of our space-related export control laws in order to identify rules 
that have become obsolete and hurt more than they help both American 
security and business interests.
    Mr. Chairman, I would like to raise another possible way the 
commercial sector might assist our government in leveraging its highly 
constrained resources. In the wake of the President's announcement, I 
really think that there may be investors who might explore negotiating 
with NASA an exclusive marketing and brokering arrangement for the U.S. 
portion of the Space Station for a specific period of time. Again, a 
concept like this would be feasible only if there is genuine interest 
by the government in such a proposal. Such an initiative is based on 
the view that NASA has demonstrated engineering brilliance in 
construction and deployment of the Space Station. But as NASA and its 
prime contractor base move on to implement the exploration strategy, 
perhaps now is an opportune time to explore innovative ideas for how 
the American commercial sector might be able to utilize the Space 
Station capability to its fullest extent. Specifically, the potential 
may exist to establish a structure whereby the Agency would receive 
royalties based on the profits generated by a private sector ISS 
initiative. These royalties might well help partially reimburse the 
government for the tax-payer's investment in ISS, and perhaps over the 
long term could fund improvements to the Station and/or be leveraged to 
support the President's vision of exploration beyond LEO. Whether or 
not this specific initiative goes anywhere, my point is that today's 
challenges can become win-win opportunities if the government is 
seriously open to new approaches with the private sector.
    In addition to private sector sources of capital, there is an 
increasing interest on the part of state and local government 
organizations to partner with NASA to assist in financing new services. 
For example, several state-based commercial spaceports have used their 
own resources to leverage infrastructure investments for both private 
and public sector uses. Speaking of innovative public-private 
partnerships in space, it is worth noting that private investors 
recently financed a Norwegian satellite data center that supports and 
is an integral part of U.S. defense and space activities. A private 
placement was raised, which enabled both U.S. and Norwegian governments 
to access a critical service, without seeking new appropriated dollars 
from the Congress. Under the financing mechanism, which raised over $40 
million dollars, the government is estimated to be saving up to $2.5 
million per year for the first few years, and as much as $7 million for 
the remaining 20 years.
    Such third party and state supported financings are making inroads 
into many sectors of government involvement, especially in defense and 
energy, which depend heavily on outsourced services and private 
financing. There is no reason why such a model could not be utilized in 
the space arena.
    Finally, Mr. Chairman, I must admit that when I first started in 
the commercial space sector my colleagues and I had fervently hoped 
that we would be much further ahead in the development of commercial 
space markets than we are today. In retrospect, I believe that we 
neglected a fundamental rule of the marketplace: Markets usually change 
over extended periods of time as customers and providers become slowly 
educated and acclimated to the advantages of new products and services. 
A case-in-point was the slow evolution of the marketplace before Global 
Position System (GPS) applications reached ``critical mass'' with a 
global commercial customer base. A technology that began commercially 
as a more efficient means of conducting land surveys now brings 
Information Technology-based productivity to an astonishing array of 
global infrastructures--from telephones to trucking and aviation to 
power lines.
    The President's direction to NASA has opened new opportunities by 
which government and industry can learn from one another and thus 
maximize the chances that the new vision actually becomes reality while 
giving birth to a robust, diverse and competitive U.S. space industrial 
base with major benefits for our Nation and the future of humanity. 
America's space entrepreneurs, who reside in both small and large 
companies, are poised once again to bring the promise of space to 
fruition. Frankly, a major challenge is whether the U.S. Government 
will ultimately follow-through on the promise of the new policy.
    Thank you again for the opportunity to be here today and I look 
forward to any questions you may have.
                                 ______
                                 
                       Courtney A. Stadd: Profile
    Mr. Stadd is President, Capitol Solutions, a management consulting 
firm located in the Washington, DC, area. In July 2003, after nearly 
three years, he resigned his position as Chief of Staff and White House 
Liaison for the National Aeronautics and Space Administration. He led 
President Bush's NASA transition team and worked with the NASA 
Administrator to cast the agency's strategic direction. Mr. Stadd had 
chief responsibility for developing and executing turn-around plans, 
budgets and staffing that addressed the major financial and management 
challenges facing NASA's high-profile $15 billion research and 
development activities.
    For the past 26 years, Mr. Stadd has worked in both the private and 
public arenas with a primary focus on identifying and removing barriers 
to market-driven opportunities in aerospace-related technology areas. 
In the previous Reagan and Bush Administrations, he has held senior 
space-related program management and policy positions in the U.S. 
Department of Commerce, the U.S. Department of Transportation and the 
White House National Space Council.
    In the private sector, he was affiliated with the establishment of 
several satellite and space transportation ventures, such as Colorado-
based DigitalGlobe, an industry leader in providing high-resolution 
commercial satellite imagery. Over the past twenty-five years, in both 
official and private capacities, he has been invited by various U.S. 
Congressional committees to testify on a range of high technology-
related public policy matters.
    He has been the recipient of numerous industry and government 
awards including the 2002 U.S. Space Foundation certificate of honor 
for his contributions to advancing ``the greater cause of the 
exploration and development of space.'' In 2001, Mr. Stadd was awarded 
NASA's highest honor--The Distinguished Service Medal for ``his 
extraordinary vision, leadership, and dedication to . . . advancing 
technology into industry.''

    Senator Brownback. All right. I think that's a good way to 
put it. This isn't just about an expenditure of money on a 
mission. It can be about vitalizing and energizing a whole 
industrial sector; and to me, one of the keys here is that I 
want to see that private capital coming in and the reward 
coming back with that growth and opportunity with it.
    Well put. Thanks.
    I have to call up a story. I had a chance to visit Dennis 
Tito, who had paid Russia, what, $20 million to do space 
tourism and he, like so many of us, wanted to go to space. As a 
young man, he was an aerospace engineer or something of that 
nature. He worked at Jet Propulsion Laboratory, then left and 
made a lot of money, but still wanted to go to space. So, he 
paid for the ride. I believe there's a huge sector of the 
population willing to pay pretty substantial fees to experience 
weightlessness and see the world from that perspective. He gave 
me a really interesting little vignette, though. He was saying 
that when he was up there it was really an incredible 
experience to him and he said he noted at one point in time 
that he now understands all those pictures of angels that he 
saw as a child, which didn't make any sense to him because he 
thinks as an aerospace guy, he said, the wings are too small on 
all the pictures of these angels. He said in weightlessness you 
just need little wings; I understand.
    It was an interesting vignette that he gave.
    Mr. Chafer, I hope you'll provide to us specifics on what 
we need to do to put in any authorizing language to make sure 
the private sector has access to work in these areas because we 
really do want to do this mission in a different way; and I 
think for it to work it has to be done in a different way of 
going to the Moon and to Mars.
    So, I hope you'll provide to us or your group of your 
specific areas that the authorizing legislation language needs 
to be different and we'll, hopefully, work with you, excuse me, 
we will work with you on that.
    Mr. Chafer. Happy to do so, sir.
    Senator Brownback. You said that we haven't been open in 
the past. Is that different now? Is there anything we need to 
do now to make sure that that is different now?
    Mr. Chafer. It ebbs and flows and I think that the biggest 
challenge is that it's so personnel dependent that there's 
adequate authority to do almost anything under the 1958 Space 
Act, so that you're looking at the only person in the world 
that's bought a Minuteman Missile from the U.S. Government. We 
did that from NASA. Launched it off Matagorda Island under Deke 
Slayton's leadership and created the first privately launched 
rocket into space when there were no regulations, but 11 
separate agencies gave us the approval. We had to go 11 for 11 
to do that.
    Senator Brownback. Wow.
    Mr. Chafer. So, there's almost always the ability to 
accomplish things and I use the example of Courtney and Dr. Ed 
Weiler who wanted to do those things. What I sense today is, as 
Courtney said, there's more sophistication in the private 
sector and, therefore, there's a greater willingness in the 
government sector to look at these alternatives.
    My largest concern is that you almost always bump into 
situations where you may well be competing with each other, the 
government and the private sector; and we have such scarce 
resources. We need to find ways not to compete. That was 
certainly true back in the early launch vehicle days when the 
space shuttle was being designed as a way to launch all 
satellites for everyone and here we were, a group of a few 
people in Texas wanting to launch rockets.
    So, there's great risk that the power of the government, 
while well-intentioned, can end up foreclosing commercial 
investment; and, again, I think it's a sensitive issue. I know 
it's not a clean, easy answer, such as a piece of legislation; 
but I think Courtney nailed it by saying this Committee can 
encourage the agencies and the leaders in the agencies to be 
open to commercial activity. And if that occurs, we'll see some 
of these little flowers bloom into very large plants and you'll 
begin to get people working together. And there's nothing like 
the real-world experience of working together to give each 
other confidence and the success of these co-developed 
missions.
    Senator Brownback. Do you have an official advisory 
committee to NASA or to the space community that private sector 
interfaces with to give these thoughts to?
    Mr. Chafer. I'm unaware of one.
    Senator Brownback. All right.
    Mr. Chafer. There may well be. We've not been asked to come 
and speak to it but I think that would be great.
    Senator Brownback. I just would like to institutionalize--
--
    Mr. Chafer. Yes, sir.
    Senator Brownback.--this dialogue more. Maybe that's one of 
the things we could put in authorizing legislation that we have 
a private sector advisory committee. I'd like to give them more 
power than just advisory, so that the Administrator has to 
listen to it or has to meet with them. The administrator, 
whoever he or she is, has to meet with them two or three times 
a year, so, to make sure that that's happening at a high-level 
dialogue.
    Mr. Chafer. I think that would be a great idea. We'd love 
to participate in that.
    Senator Brownback. Bob, you lit my fuse or sent my rocket 
off here with thinking we missed out on $5 billion that could 
have gone into the space program.
    Mr. Lorsch. Let me light your fuse about a hundred million 
dollars that is on the table of this subcommittee probably 
within the next 6 months if you want to take a look at it. You 
know, we talked about encouraging entrepreneurship and private 
sector initiatives and I didn't mean to interrupt you in the 
middle of your stream of thought, Senator.
    But my fuse is lit as well here today. So, I hope you don't 
mind if I say this. Things can be done now. We have a space 
shuttle mission that's going to go sometime soon. There's going 
to be a tremendous amount of public interest in that mission. 
There is no reason that a private foundation can't be formed 
for 50 sponsors to spend a million dollars or more to have 
their name, their logo just on a plaque on that launch to 
support this Nation getting back into space; and as soon as the 
legislation is passed that can get the money into NASA, the 
money leaves the foundation and goes to NASA. It just hits it 
as a holding spot.
    Senator Brownback. Well, let me interrupt you on that. If 
we just took a little piece out of this legislation right now 
and we just said out of the overall reauthorization of NASA or 
toward this program and said: ``Let's just take this little 
piece out and try to get it through fast so that this money can 
go directly to NASA,'' which is a key issue----
    Mr. Lorsch. Yes.
    Senator Brownback.--you're saying that that needs to take 
place. Then we can have access to, you think, a hundred million 
dollars on a near term versus?
    Mr. Lorsch. I think between the next shuttle mission and 
the concept of a screen saver, where photos that are not on the 
public NASA website, but for one dollar can be downloaded as a 
screen saver----
    Senator Brownback. Yes.
    Mr. Lorsch.--for people who want to support the space 
program will generate a hundred million dollars within the next 
6 to 12 months. And I would be amazed if it wasn't 
substantially more than that.
    I think that even if the legislation can't be fast tracked 
because you want to start selling this, in essence, immediately 
I think the trust or the holding place for this money could 
easily be in one of two places: the Smithsonian Institute in a 
special fund Air and Space Museum; or perhaps in a special fund 
where that money, which may not go direct to NASA, might go to 
subsidize programs that NASA wishes it had money to subsidize, 
like some of the programs that Mr. Stadd is talking about.
    Senator Brownback. Yes. I want to work with you in getting 
that introduced soon. So, we just take that piece of it out and 
let's just get it in now and see if we can move that through 
fast and get access to those funds for NASA.
    Mr. Lorsch. And I think the other piece that's important, 
if it can be done, is the comment that Mr. Mitchell made. I 
know of carnage and I say this with all due respect of NASA and 
government. But there are a lot of people that have been 
pioneering the way and working the halls of NASA, Congress and 
the Senate to give to the space program, who have come up with 
great ideas and great programs. And I think that to the extent 
that we have a body of law that covers intellectual properties, 
copyrights, registrations, presentations, concepts and ideas, 
it should be extended to outer space to protect and motivate 
the entrepreneurs that are out there creating the difference 
that's going to bring the hundred million dollars I'm talking 
about in the next 6 to 12 months--or the billions that I'm 
absolutely convinced we can generate prior to heading off to 
Mars.
    Senator Brownback. Would that have to be involved in this 
narrow piece of mechanism to get the money just to NASA, would 
this second piece have to be involved in it to truly access 
those private sector advertising dollars?
    Mr. Lorsch. No, it would not have to be involved; but it 
would protect the individuals that were--I mean, I've just come 
up with two ideas sitting here at the table today. And I'm good 
but I'm not the world's greatest in marketing. And I'm sure 
there are a lot of other people that have other ideas that 
could make that pot $300 million.
    Senator Brownback. Need to protect the intellectual 
property. I see what you're saying.
    Mr. Lorsch. So, it would be nice to know that those people 
knew that if they invested their own hard-earned dollars into 
something, it wasn't going to be something that was presented 
and then was exploited by some multi-national corporation or 
NASA on a direct basis. But the real opportunity right now is 
with the excitement and the enthusiasm that's going on with the 
Mars landers and the next shuttle mission. If this Committee 
does not take advantage of it, it would be just a waste of 
another hundred-plus million dollars; and, again, Senator, I 
say that with all due respect because I know that government 
works in strange ways.
    But this is a wonderful opportunity that can make a major 
difference toward getting us into space fast.
    Senator Brownback. I hope you will give us the benefit of 
some of your thinking, too, of what we could get in marketing 
resources for NASA regarding the space program, in a tasteful 
fashion that involves and works with the private sector.
    Mr. Lorsch. I think every component mission that goes up, 
if you assume that we're going to assemble and build a 
spacecraft to go to Mars from the lunar surface, there's going 
to be a tremendous amount of activity between the United 
States--between here, Earth, space station, the Moon. Every one 
of those missions, whether it's to bring parts, to do work, or 
to develop living experiments, has the potential of generating 
between 10 and $25 million a mission, easily, just for the 
rights of the companies who are sponsoring those missions to be 
able to say they're part of taking man into space.
    The ultimate mission of going to Mars, there's going to be 
a tremendous amount of time, as I understand it, at least 7 
months to get there, a year and a half up there, 7 months to 
get back. A tremendous amount of television time, tremendous 
amount of photos; and every aspect of any piece of intellectual 
property or broadcast that's communicated from the lunar 
surface, the spacecraft, back to Earth or from Mars back to 
Earth or news conferences with astronauts that can be standing 
in front of nothing more than a Nextel logo, a Northrop Grumman 
logo are worth hundreds of millions of dollars. If the Super 
Bowl game, which is one Sunday, can generate a million and a 
half to $2 million for 30-second advertisement, a lifetime of 
changing the way this world exists and contributing to science, 
technology, education and the future of our children has to be 
worth billions of dollars and without a lot of work.
    The difference between what I'm talking about is these are 
programs that if next week the Senate said: ``We'll somehow 
create a mechanism by some type of executive order where on the 
next shuttle mission 50 corporations can put a sponsorship 
plaque, minimum $1 million the 50 highest bidders,'' I would 
not be surprised if that mission took off with a hundred to 
$250 million of sponsorship money because there's so much 
enthusiasm, support and goodwill from corporate America toward 
our space program. There's no way for people to demonstrate it. 
There's no way for the teacher in a classroom to encourage 
their student to design a piece of artwork using a photograph 
from Mars and entering a contest that for 25 cents or 50 cents 
could generate $10 million.
    Look at how much money was raised in quarters for the 
children of Afghanistan in one week, in one speech----
    Senator Brownback. Yes.
    Mr. Lorsch.--by a President.
    Senator Brownback. And for me, just looking at it, we've 
got to get resources in this program to make it work. It's just 
we have to do that, and I think this represents a real way that 
we can get resources we need.
    Mr. Mitchell, when your comments came forward, I was 
thinking that we probably need to do a full hearing on what the 
scientific community is saying about the near-term prospects of 
asteroids hitting Earth. And we may lean upon you to get us 
scientific community names you think will be good and we'll do 
our own research as well on that who the best minds are.
    Mr. Mitchell. Yes.
    Senator Brownback. I'm looking at this, just the timeframes 
that they are considering this to be a real prospect for us, as 
being another part of the factors that we put forward to the 
public and to Congress about, ``Here's the reason why we need 
to do these things and do them now.'' So, I'm hoping you can 
work with us on that.
    Mr. Mitchell. Will be glad to, sir.
    In that light, starting Monday, actually Sunday, David 
Morrison of NASA and Rusty Schweickart and a whole plethora of 
scientists and individuals are holding a Planetary Defense 
Conference in Los Angeles on the very subject and the 
proceedings of that hearing will be, I think, very interesting 
to you and----
    Senator Brownback. Good.
    Mr. Mitchell.--anyone else in Congress who might be 
interested in the subject. And I'll be glad to help you in any 
way to put another meeting together.
    Senator Brownback. Just on that topic.
    Mr. Mitchell. Just on that topic, yes, sir.
    Senator Brownback. We've got to build a case for why to 
move these on forward and expend the resources from the 
government to do this.
    Mr. Mitchell. Yes.
    Senator Brownback. And this will be another platform issue.
    Mr. Stadd, thank you. Thank you for your thoughts from both 
inside and outside the organization, and I think those are good 
thoughts for us to have.
    I hope you put forward even the idea of having the 
commercial sector run the space station near term. You think 
there are a number of groups that would be competent and 
capable of doing that?
    Mr. Mitchell. Let me caveat by saying, one, I was thinking 
more in the context of working with the government pending an 
exclusive license to broker and market the U.S. portion part of 
the station, recognizing that there are some safety issues and 
so forth that will have to be taken into consideration.
    Yes, I do believe that under certain conditions there would 
be interest by individuals with substantial resources. I know 
that some people I've talked to are, quite frankly, somewhat 
concerned that, if you'll forgive the metaphor, but as the 
center of gravity, if you will, sort of shifts beyond lower 
Earth orbit in terms of focusing beyond the station over the 
long term. The American taxpayer has spent billions and 
billions of dollars in nonrecurring investment. One investor 
said to me, it's like having a house guest in your house and if 
you're not using the house, the house guest naturally is 
inclined to spread their belongings around a bit and end up 
with a defacto ownership.
    And I would presume that the taxpayer would prefer that the 
United States make full use of that capacity. So, I'm simply 
suggesting that under the right conditions I do believe there 
would be interest.
    Senator Brownback. I had a guy tell me previously that with 
all that private sector, you're going to be able to get that 
same work done for, he was suggesting, a fourth of the cost and 
a third of the time frames to get it done. Which the 
governments do great work, but we are inherently a bureaucratic 
big monolith to move.
    Mr. Mitchell. We are. And I've had the honor of working on 
both sides as you indicated, Mr. Chairman. I certainly would 
not want to, at least on my part, the record to reflect that 
this is tough stuff when you're leaving the gravity well and 
going up to what is a pretty hostile environment. It's pretty 
complicated, pretty risky stuff, particularly when you involve 
people.
    So, I don't think any one of us certainly at the table 
would underestimate the challenge; and some of the costs 
associated with, particularly with human systems, has to do 
with protecting those lives; but having said that, you're 
absolutely correct. As Mr. Chafer said, the genius of the 
American entrepreneur is if you give us a challenge within a 
certain set of parameters, I think we have a pretty good track 
record of stepping up and meeting that challenge.
    And I do want to emphasize his point, particularly if we 
can do so as co-partners with the agency. I think that we could 
be having you, sir, holding this hearing 10 years from now and 
I think we could see much of that initial part of the vision 
being executed with benefits to everybody in the American 
society and, quite frankly, on a global basis.
    Senator Brownback. Well, as we celebrate 200 years of Lewis 
and Clark, it was a government operation, Lewis and Clark was; 
but they didn't settle it.
    Mr. Mitchell. No, sir.
    Senator Brownback. They opened it up, set a pathway, proof 
of concept; but then it was the millions of people on foot that 
followed, settled and opened it up. Many of them settled in my 
state of Kansas. Off of a really well-designed government 
program, the Homestead Act. I'm critical of a lot of 
governmental programs; I don't think they work very well, but 
this one worked great. Five years you stay on it, you get 160 
acres; and the number of people that tried and failed at that 
were enormous. The number of people who tried and succeeded 
were significant, but it was just: ``OK. Here's the field. You 
guys go at it. God bless you.''
    And I hope we can take some modeling, you know, from prior 
activities of when we've opened up other frontiers and do it 
right, do it thoughtfully and we don't want people to risk 
lives in fashions that they clearly shouldn't. But at the same 
time we want to engage that spirit, entrepreneurship, energy, 
and capital to move us on forward.
    Mr. Stadd. Absolutely. If I may, sir, sometimes it's been 
my observation that there's a bit of a disconnect sometimes 
between the Nation's political system and, ironically, the very 
people the system is representing.
    Often I think the system underestimates the resiliency and 
the capacity of the American public for risk. I had the honor 
of being the chief of staff in the midst of the Columbia 
tragedy and it was awesome the bow wave of cards and letters, 
e-mails, the faxes that we received from people of all ages in 
America. And the common theme was: ``Go forward. Please find 
the problem, fix it, but move forward.'' And, in fact, we had 
an exhibit in the lobby that I was very proud of that 
juxtaposed CEOs of large corporations with 6-year-olds and 
Crayon-written cards with the common theme that it is important 
for this country to proceed forward.
    Senator Brownback. It is.
    With that note, Gentlemen, thank you very much. It has been 
quite a stimulating discussion. It has been an excellent 
hearing and input. We are working with the Chairman and the 
Ranking Member's on authorizing legislation. We'll be working 
on this budgetarily as well certain of the Appropriation's 
Committee. So, we'll be working on that issue, too; and it's a 
good moment. The thing I'm really interested in right now is 
that we get the design as close to right legislatively as we 
can, because there's a legislative architecture that is being 
chewed and stewed on right now and we want to get that as right 
as we can.
    We don't ever get them a hundred percent right, as is 
obvious by a number of some missed steps; but, hopefully, we 
can get those close to right to be really able to stimulate 
this and move it on forward.
    Thank you very much for appearing. The record will stay 
open for the requisite number of days. Thank you all for 
attending. We appreciate your being here. The hearing's 
adjourned.

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
